<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, MARCH 21, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Murray, Cochran, Shelby, 
Hutchison, Murkowski, Graham, and Coats.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. JOHN M. McHUGH, SECRETARY


             opening statement of chairman daniel k. inouye


    Chairman Inouye. This morning, the subcommittee convenes to 
review the Department of the Army's fiscal year 2013 budget 
request. And so we welcome the Honorable John M. McHugh, 
Secretary of the Army. We also welcome for the first time 
before this subcommittee, General Raymond T. Odierno, the Army 
Chief of Staff. Thank you for being with us today.
    The Department of the Army's fiscal year 2013 base budget 
request is $135 billion, the same level as last year's enacted 
base budget. The Army is also requesting $50 billion for 
overseas contingency operations (OCO) for fiscal year 2013, 
which is a decrease of $18 billion from last year's enacted 
amount.
    Due to the country's fiscal restraints, the Army's response 
to budget reductions was based on the determination of the 
right balance between three areas: personnel, modernization, 
and readiness.
    Over the next 5 years, the Army is planning to reduce the 
size of the Active Army by 490,000 soldiers and will remove at 
least eight brigade combat teams (BCTs) from its existing 
structure. The subcommittee hopes to learn more from you on 
these reductions and your plans to achieve them without 
sacrificing the lessons we have learned after a decade of war. 
As far as modernization is concerned, the fiscal year 2013 
request prioritizes the Army network and infantry-fighting 
vehicle that can accommodate the entire infantry squad and the 
joint light tactical vehicle (JLTV).
    Finally, the Army must ensure its forces are maintained, 
trained, and equipped at the highest levels of readiness in 
order to meet its operational demands and to fulfill its 
obligation in the Middle East and the Pacific in order to meet 
the new defense strategy.


                           PREPARED STATEMENT


    The subcommittee sincerely appreciates your service to our 
Nation and the dedication of the sacrifices made daily by the 
men and women in our Army. We could not be more grateful for 
what those who wear our Nation's uniform do for our country 
each and every day. And so I look forward to working with you 
to make certain that the fiscal year 2013 appropriations bill 
reflects the current and future needs of the U.S. Army.
    [The statement follows:]

            PREPARED STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Today, the subcommittee convenes to review the fiscal year 2013 
Department of Defense budget request. We welcome the Honorable John 
McHugh, Secretary of the Army. And beside him we welcome for the first 
time before the subcommittee, General Raymond T. Odierno, the Army 
Chief of Staff. Gentlemen, thank you for being here with us today.
    The Department of the Army's fiscal year 2013 base budget request 
is $135 billion, the same level as last year's enacted base budget. The 
Army is also requesting $50 billion for overseas contingency operations 
for fiscal year 2013, which is a decrease of $18 billion from last 
year's enacted amount.
     Due to the country's fiscal restraints, the Army's response to 
budget reductions was based on determining the right balance between 
three areas: personnel, modernization, and readiness.
    Over the next 5 years, the Army is planning to reduce the size of 
the Active Army to 490,000 soldiers and will remove at least eight 
brigade combat teams from its existing structure. I hope to learn more 
from you on these reductions and your plans to achieve them without 
sacrificing the lessons learned after a decade of war.
    As far as modernization, the fiscal year 2013 request prioritizes 
the Army Network, an infantry fighting vehicle that can accommodate an 
entire infantry squad and the joint light tactical vehicle.
    Finally, the Army must ensure its forces are maintained, trained, 
and equipped at the highest levels of readiness in order to meet its 
operational demands and to fulfill its obligations in the Middle East 
and the Pacific to meet the new defense strategy.
    We sincerely appreciate your service to our Nation and the 
dedication and sacrifices made daily by the men and women in our Army. 
We could not be more grateful for what those who wear our Nation's 
uniform do for our country each and every day. I look forward to 
working with you to ensure that the fiscal year 2013 appropriations 
bill reflects the current and future needs of the United States Army.

    Chairman Inouye. As you gentlemen are aware, there is a 
vote scheduled for 10:40 this morning. So, the Vice Chairman 
and I will alternate voting to continue the hearing as planned. 
And may I assure you that your full statement will be made part 
of the record. And now I call upon the Vice Chairman.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much for 
scheduling this hearing and inviting witnesses to appear and 
discuss the budget request for the next fiscal year for the 
United States Army, our soldiers, and others who are working to 
help protect the security interests of our great country. It's 
a dangerous mission these days. Men and women are deployed 
around the world to help protect our security interests and 
help maintain the access to the freedoms and liberties we enjoy 
as Americans.
    The testimony comes at an important time. We face a lot of 
challenges, and we appreciate your cooperation with our 
subcommittee in identifying the priorities to be sure we get it 
right and that we serve the best interests of our country and 
peace in the world.
    Thank you.
    Chairman Inouye. Thank you very much, Mr. Vice Chairman. 
May I call upon Senator Graham.
    Senator Graham. Thanks for having me.
    Chairman Inouye. Well, it is now my pleasure to call upon 
the Secretary, Mr. McHugh.

                SUMMARY STATEMENT OF HON. JOHN M. MCHUGH

    Mr. McHugh. Mr. Chairman, distinguished Vice Chairman, 
Senator Cochran, and Senator Graham, I don't know as I can 
equal Senator Graham's brevity. But, given the time 
constraints, I will try to be somewhat brief.
    Mr. Chairman, let me first of all join you in expressing my 
gratitude, and frankly, as the Secretary, relief to have this 
great leader on my left, the 38th Chief of Staff of the Army, 
Ray Odierno. And I want to thank this subcommittee and this 
Senate for acting swiftly to nominate him. As you know, 
gentlemen, this is a great leader who in a relatively short 
time has really made his mark as the current Chief, and also 
former leader. And I feel very honored and blessed to have him 
as my partner in these very challenging times.
    I also want to take a brief opportunity to thank this 
subcommittee for the great support that all of you have 
provided our 1.1 million soldiers, our 270,000 civilians, and 
our families. Collectively, as you know, they make up this 
great Army, and they, too, deeply appreciate all that you do 
for them.
    Today, more than ever, I would argue today's demanding 
fiscal environment requires that we maintain an even stronger 
partnership with you and this great Congress, this great house, 
to ensure that we have the sufficient resources to defeat our 
enemies, support our allies, and protect our homeland 
responsively, decisively, and yes, affordably.
    Our budget supports these goals, we believe, by laying the 
foundation for a gradual reduction of our military and civilian 
end-strength, while at the same time supporting, as you noted, 
Mr. Chairman, the vital modernization, training, soldier, and 
family programs that are so necessary to sustain this Army and 
ensure that while smaller, it remains the strongest and most 
capable land force in the world.
    As we implement what I think can be fairly described as a 
bold new security strategy, I want to be very clear. The Army's 
combat experience, adaptability, and strategic reach will be 
more vital to our Nation than ever before. Over the last year, 
I think that's been demonstrated. The Army has continued to be 
the decisive hand of American foreign policy and the helping 
hand of Americans facing the devastation of natural disasters.
    With soldiers deployed on 6 of the 7 continents, and in 
more than 150 nations around the world, your Army has become 
the face of American concern and the fist of American military 
might.
    In the Pacific, we continued our long-term presence in the 
region with some 75,000 military and civilian personnel 
participating in more than 160 exercises, engagements, and 
operations in support of our allies in that vital region.
    In Korea, our soldiers provided a strong deterrent to North 
Korean aggression. In Japan and the Philippines, we maintained 
our decades-old security relationships, training, and 
supporting with those great allies. In Europe, our soldiers 
fulfilled vital training stability and peacekeeping roles in 
Bosnia and Kosovo. While in Africa, your Army supported 
counterterrorism operations throughout the Horn and beyond.
    But foreign threats and operations were not all this Army 
faced. In 2011, this Nation experienced some of the worse 
natural disasters in our history. From responding to wildfires 
and floods to hurricanes and tornadoes, our soldiers and 
civilians from all components were there to help, protect, 
rescue, or rebuild. To put it very simply, our soldiers, 
civilians, and their families have once again proven why the 
United States Army is the most capable, versatile, and 
successful land force on Earth. And it is this ability to adapt 
to a myriad of unpredictable threats, both at home and abroad, 
that we will maintain as we move forward in this new security 
and fiscal environment.
    This year's budget, we believe, portrays an army fully 
embracing change by making the hard decisions now to lay the 
right foundations for the future.
    First, we are implementing a sweeping new defense strategy, 
which emphasizes even greater engagement in the Asia-Pacific 
region in the development of smaller, more agile land forces. 
Under this new framework, which was developed collaboratively 
with top military and civilian officials in our department, the 
Army clearly remains the decisive arm of U.S. combat power.
    Second, we are implementing this new paradigm under the 
significant cuts directed by the Budget Control Act of 2011. In 
so doing, we made some very tough decisions, but we are always 
guided by the following key principles. First, we'll fully 
support the current fight by providing operational commanders 
in Afghanistan and other theaters with the best trained and 
ready land forces in the world. That is and it will remain our 
top priority.
    Third, we will not sacrifice readiness for force structure. 
We must responsibly reduce our end-strength in a manner that 
fully supports the new strategy but also provides sufficient 
time to properly balance our training, equipment, 
infrastructure, and soldier and family support programs with 
our mission requirements.
    Fourth, we will be able to build force structure and 
capabilities to handle unforeseen changes to global security. 
The Army must be able to hedge risk through an efficient and 
effective force generation process and access to a strong 
operationalized Reserve component.
    Fifth, we will maintain and enhance the Army's extensive 
commitments in the Pacific.
    And last, we will not let the Budget Control Act be taken 
on the backs of our soldiers or their families. Although, we 
have, and we will continue to examine and, where appropriate, 
realign our programs, we will fully fund and support those 
systems that work, with special emphasis on wounded warrior, 
suicide prevention, behavioral health, and sexual assault 
programs.
    Based on these principles, our budget minimizes end-
strength reductions in the near years to support the current 
fight, emphasizes continued investments in vital modernization 
programs, such as the network, the ground combat vehicle (GCV), 
and the joint light tactical vehicle (JLTV), and delays or 
implements programs which, in our judgment, no longer meet 
urgent needs in support of our new strategy or transforming 
force, and we deferred certain military construction programs.
    The Army, at its core, is not programs and systems. It's 
people. And each time I have the honor of appearing before you, 
I come not only as the Secretary but humbly as the 
representatives of our soldiers, civilians, and their families. 
As this subcommittee knows so well, these brave men and women 
who have endured so much over the past decade depend upon a 
variety of programs, policies, and facilities to cope with the 
stress, the injuries, and family separations caused by war.
    Sadly, our suicide and substance abuse rates remain 
unacceptably high, and we are aggressively pursuing multiple 
avenues to provide our personnel with the best medical and 
behavioral support that is available. We must never forget that 
our success in both Iraq and Afghanistan has come at a heavy 
price for our Army family. Providing the means and resources 
for whatever challenges they now face is, in my opinion, the 
very least, the very most, and what we must do.

                           PREPARED STATEMENT

    As a final note regarding our Army family, I would again be 
remiss if I didn't thank you so much for the great support this 
subcommittee, and ultimately, the Committee as a whole has 
provided to those soldiers and families. They appreciate it. We 
all are so grateful for your leadership, and we look forward to 
working with you in the future.
    Thank you, Mr. Chairman.
    [The statement follows:]

        Prepared Statement of the Honorable John M. McHugh and 
                       General Raymond T. Odierno

                         THE STRATEGIC CONTEXT

    Our Nation has weathered difficult circumstances since the attacks 
on 9/11, yet we have met every challenge. The mission in Iraq has ended 
responsibly, continued progress in Afghanistan is enabling a transition 
to Afghan security responsibility, and targeted counterterrorism 
efforts have significantly weakened al Qaeda and degraded its 
leadership. In all these endeavors, the Army has played a leading role.
    As President Barack Obama stated in introducing his new national 
defense priorities, the country is at a turning point after a decade of 
war and considerable increases in defense spending. Even as large-scale 
military campaigns recede, the Nation will still face a growing array 
of security challenges. These new priorities focus on the continuing 
threat of violent extremism, the proliferation of lethal weapons and 
materials, the destabilizing behavior of Iran and North Korea, the rise 
of new powers across Asia, and an era of uncertainty in the Middle 
East.
    On top of that, our Nation confronts a serious deficit and debt 
problem (in itself a national security risk) that will squeeze future 
Army budgets. However, declining defense budgets do not nullify our 
obligation to provide enough capacity and maintain a highly ready force 
that is sufficiently modernized to provide a leaner, adaptive, 
flexible, and integrated force that offers the President a significant 
number of options along the spectrum of conflict.
    Today, the U.S. Army is the best-trained, best-equipped, and best-
led combat-tested force in the world. Today's soldiers have achieved a 
level of professionalism, combat experience, and civil and military 
expertise that is an invaluable national asset. Our warriors have 
accomplished every assigned task they have been given. But all we have 
accomplished in building this magnificent force can be squandered if we 
are not careful. We are an Army in transition, and we look to the 
Congress to assist us in the difficult work to build the Army of 2020.

         AMERICA'S ARMY--THE NATION'S FORCE OF DECISIVE ACTION

    Every day, America's Army is making a positive difference in the 
world during one of the most challenging times in our history. Although 
stressed and stretched, the United States Army remains the most agile, 
adaptable, and capable force in the world. Ours is an army that 
reflects America's diversity and represents the time-honored values 
that built our Nation:
  --hard work;
  --duty;
  --selflessness;
  --determination;
  --honor; and
  --compassion.
    Today, less than one-half of 1 percent of Americans serve in the 
Army. As members of one of our Nation's oldest and most enduring 
institutions, these volunteers play an indispensable role in guarding 
U.S. national interests at home and abroad. Young men and women who 
want to make a difference in this world want to be part of our Army, 
which is why even after a decade of conflict, we continue to fill our 
ranks with the best the Nation has to offer. They have earned the 
gratitude, trust, and admiration of an appreciative people for their 
extraordinary accomplishments.

                      2011--THE ARMY IN TRANSITION

    Over the past year, the Army has concluded its mission in Iraq and 
commenced the drawdown of surge forces in Afghanistan while 
transferring responsibility to Afghan forces. We are beginning 
reductions in end-strength to face budgetary realities. We are also 
undertaking efforts to rebalance force structure and make investment 
decisions that will shape the Army of 2020--all during a time of war. 
These transformational efforts are both significant and unprecedented. 
As the President's new national defense priorities are implemented, the 
Army will continue its transition to a smaller yet capable force fully 
prepared to conduct the full range of operations worldwide.

Operation Enduring Freedom
    A decade into the war in Afghanistan, the Army continues to play a 
leading role in defending our national security interests in this vital 
theater. At the start of the war, following the attacks on 9/11, 
elements of Army Special Operations Forces led efforts on the ground to 
bring al Qaeda members to justice and remove the Taliban from power, 
thereby denying a safe haven to terrorists. With more than 70,000 
soldiers in Afghanistan at peak strength in 2011, the Army's brigade 
combat teams conducted operations ranging from stability to 
counterinsurgency.
    Today, more than 63,000 Army soldiers in both general purpose and 
special operations units continue to conduct a wide range of missions 
across Afghanistan country to help Afghan citizens lay the foundation 
for lasting security. Simultaneously, the Army provided essential 
logistics capabilities to sustain the land-locked Afghan theater. In 
fact, only America's Army could provide the necessary theater 
logistics, transportation, medical, and communications infrastructure 
capable of supporting joint and combined forces for an operation of 
this size and complexity.
    Since the beginning of combat operations in Afghanistan, soldiers 
have earned 5,437 valor awards, including 241 Silver Stars and 8 
Distinguished Service Crosses. Four soldiers have been awarded the 
Medal of Honor for their heroic actions:
  --SFC Jared C. Monti;
  --SSG Salvatore A. Giunta;
  --SSG Robert J. Miller; and
  --SSG Leroy A. Petry.
    They exemplify the courage, commitment, and sacrifice of all the 
men and women who have served in this conflict.

Operation New Dawn
    In December 2011, the Army concluded more than 8 years of combat 
and stability operations in Iraq. Initially, powerful and agile forces 
liberated Iraq and then adapted to the new demand of suppressing the 
postinvasion insurgencies. Indeed, when the Nation needed a sustained 
effort to achieve its strategic objectives, the Army answered the call, 
adjusting its deployment tours from 12 to 15 months to enable a 
decisive surge in forces. Army units trained and equipped Iraq security 
forces, and when the mission changed, the Army executed the extremely 
difficult tasks of redeploying people and retrograding equipment to 
ensure future readiness.
    More than 1 million soldiers and Department of the Army civilians 
served courageously in Iraq. They were essential to freeing more than 
25 million Iraqi people from the tyranny of a brutal dictator, putting 
Iraq's future in the hands of its people, and removing a national 
security threat to the United States.
    Success came at a great cost in blood and treasure. But even during 
the most dire times, our soldiers never wavered. Their heroic actions 
earned 8,238 awards for valor, including 408 Silver Stars and 16 
Distinguished Service Crosses. Two Medals of Honor were awarded 
posthumously to SFC Paul R. Smith and PFC Ross A. McGinnis.

Other Global Commitments
    In addition to the Army's unprecedented contributions in 
Afghanistan and Iraq, we have continued to conduct operations across 
the globe to prevent conflict, shape the environment, and win 
decisively. Nearly 20,000 soldiers remain stationed on the Korean 
peninsula, providing a credible deterrent and investing in our 
partnership with the Republic of Korea army. Simultaneously, Army 
special operations soldiers in the Pacific region continue to provide 
advice and support to the Philippine Armed Forces, enhancing our robust 
alliance. Both are examples of strategic investments in a region that 
is home to 7 of the world's 10 largest armies. (In fact, in most 
countries around the world, the army is the dominant defense force.) 
And United States soldiers continue to serve in places such as the 
Sinai, Guantanamo Bay, Bosnia, Kosovo, and the Horn of Africa, 
developing and maintaining relationships on 6 of the world's 7 
continents.

Defense Support of Civil Authorities
    Over the past year, the Army has continued to provide instrumental 
support to civil authorities. The Army's Reserve component proved to be 
one of our great strengths for these missions, giving the force depth 
and flexibility. The National Guard provides a distinctive capability 
for the Nation. When floods, wildfires, and tornados struck from the 
Midwest to the South over the span of a few days in the spring of 2011, 
more than 900 National Guard soldiers supplied a coordinated response 
to address citizens' needs across the affected region. Similarly, when 
Hurricane Irene knocked out power and flooded towns across the 
Northeast in the summer of 2011, nearly 10,000 National Guard soldiers 
and airmen across 13 States delivered critical services to sustain the 
region through the crisis.
    In addition to ongoing counterdrug operations, approximately 1,200 
National Guard soldiers and airmen supported the Department of Homeland 
Security in four States along the Southwest border by providing entry 
identification and analysis to disrupt criminal networks and 
activities.

Army Special Operations Forces
    To conduct unified land operations, the U.S. Army fields a suite of 
special operations capabilities that range from the world's finest 
precision strike and special warfare forces to the world's most lethal 
combined arms maneuver formations. The Army draws from across its broad 
set of capabilities to provide the joint commander the blend of Army 
assets required to ensure mission accomplishment. True in Afghanistan 
today, Army Special Operations Forces are also providing assistance in 
the Philippines, Yemen, the Arabian gulf, Lebanon, Colombia, the 
African Trans-Sahel, and across the Caribbean and Central America. As 
Army regular forces become available, they will increasingly integrate 
with Army Special Operations Forces to promote trust and 
interoperability with allies and build partner nation capacity where 
mutual interests are at risk from internal or external enemies.

                           FISCAL ENVIRONMENT

Challenges of Reduced Budget
    Today's global fiscal environment is driving defense budgets down 
for our partners and allies, as well as our Nation. Historically, 
defense spending has been cyclic with significant reductions following 
the end of major conflicts. The Army understands it cannot be immune to 
these fiscal realities and must be part of the solution. Our focus 
areas for the fiscal year 2013 budget demonstrate our concerted effort 
to establish clear priorities that give the Nation a ready and capable 
Army while being good stewards of all our resources.

Challenges of Continuing Resolutions
    Timely and predictable funding enables the Army to plan, resource, 
and manage the programs that produce a trained and ready force. The 
Army very much appreciates that the Congress approved the fiscal year 
2012 budget earlier than had been the case in recent years when we were 
forced to operate for long stretches under continuing resolutions. 
Long-term continuing resolutions force the Army to slow its spending, 
freeze production rates, and delay the start of new programs. Such 
delays pose a risk to the Army's operational readiness and investment 
strategy. We stand ready to help the Congress once again pass defense 
bills in a timely manner.

                          SECURITY ENVIRONMENT

    A series of powerful global trends continue to shape the current 
and future strategic environment:
  --increased demand for dwindling resources;
  --persistent regional conflict;
  --empowered non-state actors;
  --the continuing proliferation of weapons of mass destruction; and
  --failed states.
    We anticipate a myriad of hybrid threats that incorporate regular 
and irregular warfare, terrorism, and criminality. We also face cyber-
threats to an increasingly critical and vulnerable information 
technology infrastructure and the destabilizing effect of global 
economic downturns. Together, these trends create a complex and 
unpredictable environment in all of the Army's operational domains:
  --land;
  --sea;
  --air;
  --space; and
  --cyberspace.

                    IMPLICATIONS FOR AMERICA'S ARMY

Role of the Army: Prevent, Shape, Win
    In the uncertain environment our country faces, the Army remains 
central to our Nation's defense as part of the joint force. No major 
conflict has been won without boots on the ground. Listed below are the 
three essential roles the Army must play.
    First, our Army must prevent conflict just as we did during the 
cold war. Prevention is most effective when adversaries are convinced 
that conflict with your force would be imprudent. The Army's ability to 
win any fight across the full range of operations as part of a joint 
force must never be open to challenge. It must be clear that we will 
fight and win, which requires a force with sufficient capacity, 
readiness, and modernization. That means quality soldiers; agile, 
adaptive leaders; versatile units; realistic training; and modern 
equipment. Prevention is achieved through credible readiness, sometimes 
requiring decisive action. Our Army must continue to be a credible 
force around the globe to prevent miscalculations by those who would 
test us.
    Second, our Army must help shape the international environment to 
enable our combatant commanders to assure our friends and contain our 
enemies. We do that by engaging with our partners, fostering mutual 
understanding through military-to-military contacts, and helping them 
build the capacity to defend themselves. These actions are an 
investment in the future that the Nation cannot afford to forego. We 
must cultivate positive relationships before they are needed and be a 
reliable, consistent, and respectful partner to others.
    Finally, the Army must be ready to win decisively and dominantly. 
Nothing else approaches what is achieved by winning, and the 
consequences of losing at war are usually catastrophic. With so much at 
stake, the American people will expect what they have always expected 
of us--decisive victory. The Army must never enter into a terrible 
endeavor such as war unprepared. Although we may still win, it will be 
more expensive, cost more lives, and require more time.
    In addition to being trained, sized, and equipped to win decisively 
in the more traditional operational domains, the Army also will require 
robust capability in cyberspace. As the past decade of conflict has 
demonstrated, the information environment has changed the way we fight. 
Military and cyberspace operations have converged, and protecting 
information in cyberspace is more essential than ever to how our Army 
fights. The advantage will go to those able to maintain the freedom to 
operate and able to gain, protect, and exploit information in the 
contested cyberspace domain. The Army must be dominant in both the land 
and cyberspace domains.

Smaller But Reversible
    As our new national defense priorities drive us to a smaller Army, 
we must avoid the historical pattern of drawing down too fast or risk 
losing leadership and capabilities, making it much harder to expand 
again when needed. It is critical that the Army be able to rapidly 
expand to meet large unexpected contingencies, and four components are 
key to that ability. First, the Army must maintain a strong cadre of 
noncommissioned and mid-grade officers to form the core of new 
formations when needed. Second, we will make significant investments in 
Army Special Operations Forces to increase their capabilities and 
provide the President with more options. Third, it will require ready 
and accessible Army National Guard (ARNG) and Army Reserve forces. The 
Army's Reserve component has proven essential in contingency operations 
around the world. From Kosovo, the Sinai and Horn of Africa to 
Afghanistan and Iraq, homeland defense along America's Southwest 
border, humanitarian assistance and disaster relief at home and abroad, 
the ARNG and Army Reserve have evolved into indispensable parts of our 
operational force and we will continue to rely on them to provide depth 
and versatility to meet the complex demands of the future. The fourth 
critical component of the Army's ability to expand is the Nation's 
industrial base. We rely on the industrial base to perform research and 
development and to design, produce, and maintain our weapons systems, 
components, and parts. It must be capable of rapidly expanding to meet 
a large demand. Reversibility is the sine qua non to ensuring that the 
Army can rapidly grow when our Nation calls.

                         THE ARMY'S FOCUS AREAS

Support to Operations in Afghanistan
    Our immediate focus remains on providing the best-trained and most-
ready land forces in the world to win the current fight while 
maintaining responsiveness for unforeseen contingencies. The support of 
the American people is paramount to our success. We must fulfill our 
responsibilities to them without draining their goodwill and treasure.
    Despite continued challenges and tough conditions, our forces are 
making measureable progress against an adaptive enemy. Army security 
force assistance teams continue to train both Afghan National Army 
Forces (now almost 180,000 strong) and Afghan national police forces 
(made up of nearly 144,000 men and women in uniform). The increased 
capability of Afghan security forces is allowing security of the region 
to be turned back over to the Government of Afghanistan district by 
district. During the coming year we must continue to provide trained 
and ready forces equipped to support operations. We remain focused on 
doing everything we can to ensure that we meet our national objectives 
and provide what our brave men and women in the field need to succeed.
    In Afghanistan, the commitment and performance of our soldiers and 
civilians continues to be nothing short of extraordinary. Not only have 
they taken the fight to our enemies, but they have proven equally 
effective as emissaries. Our investment in leader development prepared 
them to operate in this demanding environment.
    In the coming year we will continue to increase the Afghan lead of 
security responsibilities, target key insurgent leaders, retain and 
expand secure areas, and help Afghan National Security Forces earn the 
support of the people through improved security capacity and 
capability. Because of its geography, distance, infrastructure, and 
harsh environment, the difficulty and complexity of the drawdown in 
Afghanistan will exceed that in Iraq. The United States Army is the 
only organization in the world with the capability to plan and execute 
a logistical operation this complex and difficult.
    The Army places great emphasis on properly maintaining its 
equipment to restore readiness to the force and ensure it is prepared 
to meet combatant commander requirements. The Army reset program 
reverses the effects of combat stress and restores equipment to a high 
level of combat capability to conduct future operations. Reset is a 
lengthy process, and even after the drawdown from Afghanistan is 
complete, the Army will require funding for 2 to 3 years to reset our 
equipment from the harsh demands of war.

                        RESPONSIBLE STEWARDSHIP

Institutional Army Transformation
    The drive to reform the Institutional Army is about doing things 
better, smarter, and faster while taking advantage of available 
technology, knowledge, and experience. Our Institutional Army--the part 
of the Army that trains, educates, and supports Army forces worldwide--
will become more flexible by improving our ability to quickly adapt to 
changing environments, missions, and priorities. The Institutional Army 
is also working to rapidly address the demands placed on the 
organization by the current and future operational environments. It 
performed magnificently to produce trained and ready forces, even while 
seeking to adapt institutional business processes.
    Further, the Army is working to provide ``readiness at best value'' 
to help us live within the constraints imposed by the national and 
global economic situation. In short, the need to reform the Army's 
institutional management processes and develop an integrated management 
system has never been more urgent. To enhance organizational adaptive 
capacity while shepherding our resources, the Army initiated a number 
of efforts, such as the Army financial improvement plan, which will 
enable the Army to achieve full auditability by fiscal year 2017.

Acquisition Reform
    As a result of uncertain funding, insufficient contract oversight 
and an ineffective requirement determination process, the Army has 
initiated a significant reform of the way we develop and acquire our 
products and weapons. As part of this initiative, we have taken steps 
toward improvement through a series of capability portfolio reviews. 
These platforms serve to revalidate, modify, or terminate programs 
based on the Army's need and the affordability of the program. We have 
also started to fix an inefficient procurement system that too often 
wastes precious resources and fails to provide needed systems in a 
timely manner. For example, the Army commissioned a comprehensive 
review of our acquisition system that, based on the findings and 
recommendations, produced a blueprint for acquisition reform. These 
changes fall into four broad areas:
  --realignment of acquisition requirements combined with a sharper 
        focus on the needed competencies of acquisition professionals;
  --expansion of stakeholder (acquisition professional and soldier end-
        user) participation in developing requirements, planning, and 
        acquisition solicitation;
  --reappraisal and streamlining of acquisition strategies and the 
        attendant risk in such streamlining; and
  --improvement in the selection, development, and accountability of 
        the people involved in the acquisition process.
    We are implementing these recommendations as part of our broader 
effort to reform the Institutional Army.

Army Energy Security
    Supplying energy to our Army around the world is increasingly 
challenging, expensive, and dangerous. The Army must consider energy in 
all activities to reduce demand, increase efficiency, obtain 
alternative sources, and create a culture of energy accountability. 
Energy security is an imperative that can be described in two 
categories--operational and garrison.
    Operational energy is the energy and associated systems, 
information and processes required to train, move, and sustain forces, 
and systems for military operations. The Army is developing new 
doctrine, policies, plans, and technologies that will improve the 
management and use of operational energy to better support soldiers' 
needs. Less energy-efficient systems in an operational environment 
require more fuel, increasing the number of fuel convoys and thus 
risking more lives and limiting our flexibility.
    Garrison energy is the energy required to power Army bases and 
conduct soldier training. Dependence on fossil fuels and a vulnerable 
electric power grid jeopardize the security of Army operating bases and 
mission capabilities. The impact of increasing energy prices is a 
decrease in the quantity and quality of training the Army can conduct.
    Initiatives such as cool roofs, solar power, stormwater management, 
and water efficiency are positive steps toward addressing the 
challenges of energy security in the operational and garrison 
environments. Innovative and adaptive leaders, seeking ways to increase 
energy efficiency and implement renewable and alternate sources of 
energy, are key to saving lives and increasing the Army's flexibility 
by reducing costs.

                             A LEANER ARMY

    The Army is committed to providing combatant commanders with the 
capabilities, capacity, and diversity needed to be successful across a 
wide range of operations. With a leaner Army, we have to prioritize and 
also remain capable of meeting a wide range of security requirements. 
We will reduce in a manner that preserves our readiness and avoids any 
hollowing of the force. To satisfy this enduring requirement, we have 
three rheostats that must be continuously assessed and adjusted:
  --end strength/force structure;
  --readiness; and
  --modernization.
    We will balance these three foundational imperatives throughout the 
next several years to provide combatant commanders trained and ready 
forces in support of Joint Force 2020.

Force Structure and Force Design
    The Army will maintain a versatile mix of tailorable and networked 
organizations, operating on a rotational cycle, to continue providing a 
sustained flow of trained and ready forces for the full range of 
military operations. This will give combatant commanders a hedge 
against unexpected contingencies and enable a sustainable tempo for our 
All-Volunteer Force. Over the next 5 years, the Army will decrease its 
end-strength from a peak authorized strength of about 570,000 to 
490,000 Active Army, 358,000 to 353,500 ARNG, and 206,000 to 205,000 
Army Reserve soldiers as directed. Reducing our end-strength over a 
deliberate ramp through the end of fiscal year 2017 allows the Army to 
take care of soldiers, families, and civilians; to continue meeting our 
commitments in Afghanistan; and to facilitate reversibility in an 
uncertain strategic environment.
    An unpredictable and dynamic global security environment requires 
the Army, as a force in transition, to adjust and reduce its size while 
remaining flexible, capable, and ready to meet the Nation's 
requirements and maintaining an ability to reverse course to readily 
expand if necessary. In accordance with the new defense priorities, the 
Army of 2020 must have a versatile mix of capabilities, formations, and 
equipment that is lethal, agile, adaptable, and responsive. As the Army 
transitions from the current force to a leaner force, it will do so 
while remaining engaged in the current conflicts. The Army will 
prioritize force structure and committed assets in the Pacific region 
and the Middle East, and will shape the future force to support the 
Army's requirements as part of the joint force to fulfill the Nation's 
strategic and operational commitments. The Army will optimize force 
structure to maintain reversibility, and achieve maximum operational 
strategic flexibility. Today we plan on reducing at least eight Active 
component brigade combat teams (BCT); however, we continue to assess 
the design and mix of these modular formations based upon the lessons 
from the last 10 years of combat. This analysis may lead to a decision 
to reorganize BCTs into more capable and robust formations, requiring 
further BCT reductions in order to increase overall versatility and 
agility for tomorrow's security challenges.
    As the Army's Active component reduces in size, the composition of 
combat support and combat service support enablers in the Active and 
Reserve components will be adjusted to give the Army the ability to 
conduct sustained operations and to mitigate risk. The Army will 
continue to rely on the Reserve components to provide key enablers and 
operational depth. An operational Reserve comprised of a discrete set 
of capabilities with an enhanced level of readiness will be essential. 
This force will consist of three elements:
  --select combat formations prepared to respond to crisis;
  --combat support and combat service support enablers employed early 
        in support of operational plans; and
  --forces aligned to support steady-state combatant commander 
        requirements.
    Ensured access to the Reserve component is essential to providing 
the operational depth and flexibility combatant commanders require. 
During the transition, we must manage our people carefully to neither 
compromise readiness nor break faith with those who have served the 
Nation so well.

Readiness
    Army unit readiness is measured by the level of its manning, 
training, and equipping. The current Army Force Generation (ARFORGEN) 
model has served us well in meeting the requirements for Iraq and 
Afghanistan; however, we will adapt it to ensure we meet future 
combatant commander requirements in the uncertain, complex strategic 
environment. We envision a progressive readiness model for most Active 
and Reserve component early deploying units which will align forces for 
combatant commanders. Because of their unique capabilities, our low-
density, high-demand units do not lend themselves to a rotational pool 
like ARFORGEN. These units must be sustained in a constant readiness 
model.

The Strength of Our Army is Our Soldiers
    Soldiers and families form the foundation of unit readiness. People 
are the Army, and our enduring priority is to preserve the high-
quality, All-Volunteer Force--the essential element of our strength. 
The Army has gained the trust of the American public more than at any 
other time in recent history while developing a force that is very 
different from what it was a few short years ago. Our Army must 
maintain the public's trust while our Nation fulfills its 
responsibilities toward soldiers and their families. The United States 
Army is unique from other professions because our core attributes are 
derived from American values, the Constitution, and law. Today's Army 
is building on a successful foundation with the trust, respect, and 
support of the American people. This foundation, and our enduring 
commitment to strengthening our Army profession, will improve our force 
as it adapts to meet the Nation's evolving needs.
    The Army is the Nation's pre-eminent leadership experience. The 
All-Volunteer Force is our greatest strategic asset, providing depth, 
versatility, and unmatched experience to the joint force. We must 
continue to train, develop, and retain adaptive leaders and maintain 
this combat-seasoned, All-Volunteer Force of professionals. We will 
continue to adjust in order to prepare our leaders for more dynamic and 
complex future environments. Our leader development model is an 
adaptive, continuous, and progressive process grounded in Army values. 
We grow soldiers and Army civilians into competent and confident 
leaders capable of decisive action. We must give our leaders broadening 
opportunities to better prepare them for the myriad challenges they 
will encounter. In addition, we must reinvigorate unit training, 
training management skills, and leader development to build versatile 
units. By providing our leaders with the professional challenges they 
expect, we will retain them and nurture their adaptive spirit.
    Our challenge in the coming years is not just about attracting and 
selecting the best available candidates to be Army professionals. We 
must also engage and develop our quality, combat-experienced leaders so 
that we keep them, and they, in turn, train the next generation of Army 
professionals. During the last decade of war, we have given our young 
leaders unprecedented flexibility and authority to operate effectively 
on the battlefield. We will prepare for tomorrow by building on that 
investment and ensuring that opportunities for creativity, leadership, 
and advancement exist throughout the Army.
    We must draw down wisely to avoid stifling the health of the force 
or breaking faith with our soldiers, civilians, and families. Excessive 
cuts would create high risk in our ability to sustain readiness. We 
must avoid our historical pattern of drawing down too much or too fast 
and risk losing the leadership, technical skills, and combat experience 
that cannot be easily reclaimed. We must identify and safeguard key 
programs in education, leader development, healthcare, quality of life, 
and retirement--programs critical to retaining our soldiers.

The Strength of Our Soldiers is Our Families
    In order to ensure a relevant and ready All-Volunteer Force, the 
Army will continue to invest heavily in our soldier and family 
programs. The Army Family Covenant expresses the Army's commitment to 
care for soldiers and their families by providing a strong, supportive 
environment that enhances their strength and resilience and helps them 
to thrive. The Covenant focuses on programs, services, and initiatives 
essential to preserving an All-Volunteer Force and institutionalizes 
the Army's commitment to provide soldiers and their families a quality-
of-life commensurate with their service to the Nation. Through the 
Covenant, the Army is improving the delivery of soldier and family 
programs and services, sustaining accessibility to quality healthcare, 
and promoting education and employment opportunities for family 
members. We are sustaining high-quality housing; ensuring excellence in 
school support, youth services, and child care; and maintaining quality 
recreation services for soldiers and family members as they serve on 
the Nation's behalf around the world. We will not walk away from our 
commitment to our families; however, a different fiscal reality 
requires us to review our investments and eliminate redundant and poor-
performing programs while sustaining those that are high-performing and 
most beneficial to our families.

Honoring Service
    We must fulfill our moral obligation to the health, welfare, and 
care of our soldiers, civilians, and families. The effects of more than 
10 years of war and inadequate dwell-time at home has resulted in a 
cumulative stress on soldiers, families, and communities that has 
significant implications for the Army and our Nation. We have 
implemented an unprecedented number of personnel-focused programs, 
including comprehensive soldier fitness; wounded warrior program; and 
health promotion, risk reduction, and suicide prevention, to ensure the 
continued care, support, and services that sustain the high quality of 
our force.
    Sexual harassment and sexual assault are inconsistent with the 
Army's values and our profession. It is imperative that we foster a 
climate where such misconduct is not tolerated and the dignity of our 
soldiers, civilians, and family members is respected and protected. 
Army leaders are focused on the urgency of this issue and the level of 
commitment required to affect cultural change and combat this crime. We 
are aggressively implementing and expanding the Army's comprehensive 
Sexual Harassment/Assault Response and Prevention (SHARP) program. The 
SHARP program is aimed at command prevention efforts at all levels, 
educating all members of our Army family, training our first responder 
professionals, and supporting victims while reducing the stigma of 
reporting. One incident of this type of unwarranted and abusive 
behavior is one too many. The Army is committed to ensuring leadership 
at all levels is engaged in preventing sexual assault and harassment 
and appropriately holding offenders accountable.
    The Army continues to invest heavily in better understanding 
traumatic brain injury and post-traumatic stress, the invisible 
signature wounds of our recent wars. We have developed and implemented 
new prevention and treatment protocols, and we are in the third year of 
our 5-year partnership with the National Institute of Mental Health to 
identify the factors that help protect a soldier's mental health and 
those that put it at risk.
    We have also started to reduce the length of deployments to 9 
months for many of our units at the division level and below, which we 
believe will alleviate significant pressure on our soldiers and their 
families. We are doubling our efforts to ensure that each of our more 
than 18,000 soldiers currently enrolled in the Integrated Disability 
Evaluation System (IDES) is carefully examined to determine whether he 
or she should return to civilian life or continue military service. A 
recent initiative between the Department of Defense (DOD) and 
Department of Veterans Affairs, the IDES integrates formerly separate 
programs resulting in a streamlined, more efficient process for 
servicemembers, which will reduce the backlog of soldiers awaiting 
benefits.
    As we draw down the Army, we must honor our veterans with the very 
best support, care, and services they deserve as they make the 
transition from military service to civilian life. We are committed to 
our soldiers and their families, who are the strength of the Army. At 
the same time, the Army is focused on wisely managing our resources in 
the healthcare arena. The Army supports DOD proposals to further reduce 
the rate of growth in healthcare costs--proposals that are aligned with 
our priorities. TRICARE is a superb health benefit, one of the best in 
the country and appropriately so. Just as in all areas of the Defense 
budget, we need to make decisions that preserve a strong benefit yet 
reflect the fiscal realities of the times. The proposals take care to 
exempt populations who have made the greatest sacrifices--those who are 
medically retired and those families who have lost their loved one 
while serving on Active Duty. The changes proposed are also adjusted to 
reflect lower adjustments for those retirees with lower retirement pay. 
And, most importantly, the Department continues to provide resources 
that improve the overall health system for our soldiers and their 
families.
    The Army is using the health promotion and risk reduction fiscal 
year 2011 Campaign Plan to holistically promote health and reduce risk. 
The Campaign Plan incorporates findings and recommendations from DOD 
and Army reports regarding health promotion, risk reduction, and 
suicide prevention. Health promotion and risk reduction activities are 
essential to sustain the force under the current operational tempo and 
reset our Army.

Modernization
    The Army has global responsibilities requiring large technological 
advantages to prevail decisively in combat. Just as pilots and sailors 
seek supremacy in the air and on the seas, soldiers must dominate their 
enemies on land. Modernizing, especially as end-strength is reduced, is 
the key to ensuring that our dominance continues.
    The Army is setting priorities and making prudent choices to 
provide the best possible force for the Nation within the resources 
available. We are developing and fielding a versatile and affordable 
mix of equipment to enable us to succeed in the full range of missions 
and maintain a decisive advantage over our enemies. To meet the 
challenges of an evolving strategic and fiscal environment, our 
strategy is based on three tenets:
  --integrated capability portfolios;
  --incremental modernization; and
  --leveraging the ARFORGEN cycle;
    --integrated capability portfolios (align stakeholders to identify 
            capability gaps and eliminate unnecessary redundancies);
    --incremental modernization (enables us to deliver new and improved 
            capabilities by leveraging mature technologies, shortening 
            development times, planning growth potential, and acquiring 
            in quantities that give us the greatest advantage while 
            hedging against uncertainty); and
    --ARFORGEN (processes synchronize the distribution of equipment to 
            units providing increased readiness over time and 
            delivering a steady and predictable supply of trained and 
            ready modular forces. The Army has consolidated its 
            materiel management process under a single command and 
            designated U.S. Army Materiel Command as the Army's Lead 
            Materiel Integrator. Additionally, we consolidated all of 
            our materiel data into a single authoritative repository 
            called the Logistics Information Warehouse).
    These emerging systems and processes represent a powerful new 
approach for implementing the Army's equipping priorities, policies, 
and programs to the meet new security demands of the 21st century. The 
equipment requested in the President's fiscal year 2013 budget strikes 
a balance between current and future needs, provides the basis for an 
affordable equipping strategy over time, and takes into account Army 
requirements and priorities. In developing this request, the Army made 
difficult decisions to shift funds previously programmed for future 
capabilities to current needs. The decisions came at the expense of 
promising and needed technologies with capabilities that did not fit 
within resource limitations. The Army's top four modernization 
priorities are the Network, ground combat vehicle (GCV), joint light 
tactical vehicle (JLTV), and soldier systems.

Network
    Also known as LandWarNet, the network remains the Army's top 
investment priority. With expectations of tighter budgets and a still 
very active threat environment, the Army will have to produce a force 
that is smaller yet more capable. The Network is the core of that 
smaller, capable Army.
    The Army is conducting a series of semiannual field exercises known 
as the Network Integration Evaluation to evaluate, integrate, and 
mature the Army's tactical network. The exercises will assess network 
and non-network capabilities to determine implications across doctrine, 
organization, training, materiel, leadership and education, personnel, 
and facilities. The process aligns several key Army network programs 
and advances the fusion of radio waveforms to form an integrated 
network baseline to which industry can build.
    The foundation of the modernized network is a joint, secure, and 
common architecture that will provide information from the cloud to 
enable leaders, units, and the Institutional Army to function more 
effectively. The Army will extend this critical capability to its 
installations around the world. This capability will increase force 
effectiveness, facilitate transition for units, and individuals from 
one phase of the ARFORGEN cycle to another and greatly improve network 
security.
    The major programs that form the backbone of the tactical network 
are:
  --the Warfighter Information Network-Tactical, which provides a real-
        time common operating picture down to the company level by 
        extending satellite and line-of-sight communications, including 
        telephone, data, and video;
  --the Joint Tactical Radio System, an advanced software-defined 
        family of radios that will carry data and voice for dismounted 
        troops and airborne and maritime platforms;
  --the Distributed Common Ground System-Army, which provides 
        intelligence, surveillance, and reconnaissance data, as well as 
        access to the entire Defense Intelligence Information 
        Enterprise, to commanders from the company to Army service 
        component command level;
  --the Joint Battle Command Platform, which provides situational 
        awareness data enhancing mission command to Army and Marine 
        Corps tactical operations centers and combat vehicles; and
  --Nett Warrior, which gives dismounted leaders integrated situational 
        awareness and information sharing, helping them to avoid 
        fratricide and increase combat effectiveness.
    The Army network must be dynamic to give soldiers, civilians, and 
partners information and services when and where needed. Investment 
must be steady and wisely applied, while maintaining a strong 
partnership with industry.

Ground Combat Vehicle
    The infantry fighting vehicle is reaching the limit of its capacity 
to receive technology upgrades proven critical for soldiers in combat 
operations. GCV is the Army's replacement program for the infantry 
fighting vehicle and the centerpiece of the Army's overall combat 
vehicle investment strategy. It will be designed to deliver a full 
nine-man squad with improved survivability, mobility, and network 
integration, considered crucial to our ability to conduct fire and 
maneuver in close quarters fighting in complex terrain. The vehicle 
will also provide the growth potential necessary to accommodate 
advances in protection, networking and space, weight, power, and 
cooling technologies while reducing sustainment demands. No current 
vehicle can sufficiently meet all these requirements.
    GCV acquisition strategy implements affordability measures designed 
to ensure the long-term success of the program as the Army faces 
constrained resources in the future. To develop this acquisition 
strategy, the Army and the Office of the Secretary of Defense conducted 
a comprehensive review to make sure the program is both achievable and 
affordable within a 7-year timeframe. The model adopted for the GCV 
program incentivizes industry to use the best of mature technologies 
that are both affordable and support the 7-year timeframe. The Army has 
also paid close attention to risk reduction within the program by 
requiring industry to identify potential cost schedule and performance 
tradeoffs; provide cost targets throughout the GCV's lifecycle; and 
maximize competition to support innovation, cost containment, and 
schedule requirements.

Joint Light Tactical Vehicle
    As a Joint Service program between the Army and Marine Corps, the 
JLTV will replace approximately one-third of the Army's oldest 
unarmored high mobility multipurpose wheeled vehicles (HMMWV). The JLTV 
incorporates the strengths of the mine-resistant, ambush-protected 
(MRAP) vehicles that the HMMWV family of vehicles does not provide. The 
HMMWV was not designed to be used as an armored combat vehicle, but it 
was often employed as one during the wars in Afghanistan and Iraq. In 
contrast, the JLTV will be designed for this role from the outset. It 
will be capable of operating across the range of military operations 
and physical environments providing improved mobility and protection 
for soldiers. The JLTV balances protection, payload, performance, and 
improved fuel efficiency in one affordable and sustainable vehicle. It 
will also be fully integrated into the Network to enhance the 
effectiveness of ground forces.

Soldier Systems
    The squad is the foundation of the decisive force; it is the 
cornerstone of all units. To ensure the success of combat operations in 
the future, the Army will invest in systems that consider the squad as 
a team rather than a collection of individuals. This approach will 
guarantee that the squad will not be in a fair fight but will have 
overmatch. The Army will continue to invest in soldier systems that 
enable the lethality, protection, situational awareness, and mobility 
of the individual soldier in his or her squad. These systems include 
small arms, night vision, soldier sensors, body armor, and individual 
clothing and equipment.

                         SUMMARY AND CONCLUSION

    The Army has been, and will continue to be, a critical part of the 
joint force because land power remains the politically decisive form of 
warfare and is essential to America's national security strategy. No 
major conflict has ever been won without ``boots on the ground.'' By 
being tasked to seize, occupy, and defend land areas, as well as to 
defeat enemy land forces, the Army is unique because it must not only 
deploy and defeat an adversary but must be prepared to remain in the 
region until the Nation's long-term strategic objectives are secured. 
Indeed, the insertion of ground troops is the most tangible and durable 
measure of America's commitment to defend our interests, protect our 
friends, and defeat our enemies.
    With global trends pointing to further instability, our Army 
remains a key guardian of our national security. In the wake of the 
cold war, it was said that we had reached the ``end of history,'' and 
that liberal democracy had won the ideological competition. However, 
events since then make it clear that potential adversaries with 
competing ideologies still exist and are extremely dangerous.
    As a result, we find ourselves in an increasingly uncertain world, 
with threats ranging from terrorist and cyberattacks to regional 
instability to the proliferation of weapons of mass destruction. For 
our Army that means we will likely have to deal with near peer 
competitors in niche areas and hybrid threats that mix regular, 
irregular, and criminal activity--all while still facing the 
possibility of a conventional force-on-force conflict.
    The danger extends from the homeland to the theater where combat 
operations might occur. Conflict is the norm; a stable peace the 
exception. In such a world, our adversaries will adapt to gain 
advantage, especially in the land domain. And it is on land that our 
challenges will be the most complex because of dynamic human 
relationships and terrain variables.
    While the Army's new end-strength numbers allow it to support 
current defense priorities, it is imperative that the Army draw down 
end-strength levels in a smart and responsible manner. We believe that 
our new end-strength provides us with the flexibility to retain the 
hard-won expertise it has gained over the last decade. To be sure, the 
Army has faced similar challenges before. After every major conflict 
since the Revolutionary War, the Army has faced pressure to decrease 
its end-strength. As recently as 2001 (pre-9/11), many believed a 
strategic shift was needed and that the future of modern warfare would 
be about missile defense, satellites, and high-tech weaponry because no 
adversary would dare challenge America's conventional forces. But 
whenever we have rushed to radically diminish the position of the Army, 
the result has always been the same: an excessive decline in 
effectiveness at a cost of blood and treasure.
    Decreases after World War I directly contributed to failures at 
Kasserine Pass. Decreases after World War II led to Task Force Smith's 
failure in Korea. More recently, the end of the cold war demonstrated 
our Nation's need for agile, adaptable, and decisive ground forces to 
conduct a wide range of operations. These numerous missions include 
Operation Provide Comfort in Iraq, Joint Task Force Andrew in Florida, 
Operation Restore Hope in Somalia, Operation Uphold Democracy in Haiti, 
Operation Joint Endeavor in Bosnia-Herzegovina, and Operation Joint 
Guardian in Kosovo. What they have in common is that they were 
unforeseen, thus emphasizing our need to avoid the historical pattern 
of drawing down too fast.
    America's leaders face difficult choices as they chart the way 
ahead for our Nation. Familiar external threats persist and complex new 
challenges will emerge. Concurrently, fiscal limitations create 
internal challenges for our leaders. America's Army is prepared to 
fulfill its role in keeping the Nation secure. The Army will prevent 
conflict by remaining a credible force with sufficient capacity to 
dissuade adversaries from challenging American interests. The Army will 
shape the environment, building positive relationships and capabilities 
that enable nations to effectively protect and govern their citizenry. 
Finally, when called, the Army will fight for the Nation and win 
decisively. We understand these responsibilities and resolve not to 
reduce the size of the Army in a manner that does not permit us to 
reverse the process should demand for forces increase dramatically.
    As we look ahead, the Army is focusing on three areas. Our first 
priority remains supporting operations in Afghanistan. We will guard 
against becoming distracted by the future at the risk of our men and 
women who remain in harm's way.
    Second, we will be the very best stewards we can because America's 
resources are too precious to waste. Transforming the Institutional 
Army, reforming our acquisition process and ensuring energy security 
are essential for us to protect the resources provided by the Congress 
and the American people.
    Third, we will fight to incorporate principles and processes that 
preserve readiness and capability while reducing the size of the Army. 
We are adjusting our formations to build the right number of units with 
the right capability to meet the needs of the Joint Force. The past 10 
years have taught us that an operational reserve force is essential to 
accomplish our missions and expand rapidly when required. We will 
invest deliberately and wisely in our soldiers, civilians, and families 
to make sure they are prepared and supported. We will treat those who 
have served in our ranks with respect and honor. Our wounded soldiers 
will receive the very best care the Nation can provide, and our 
soldiers who return to civilian life will be well-prepared to do so.
    Future threats will demand enhanced capabilities for our soldiers, 
so we will modernize our equipment. The Army has identified four 
programs to highlight. The Network gives sight, sound, and awareness to 
our soldiers, civilians, and leaders to defeat our adversaries. The GCV 
and JLTV will incorporate hard-won lessons in Iraq and Afghanistan to 
provide the mobility and protection our soldiers require. Investments 
in soldier systems improve our soldiers' ability to move, fight, and 
survive on the battlefield.
    The Army has chosen its focus areas carefully and deliberately 
because they will enable us to provide what Nation needs. We owe it to 
America and to the American soldier, the Nation's servant and warrior--
the strength of the Nation.
                                 ______
                                 
     2012 Reserve Component Addendum to the Army Posture Statement

    Sections 517 and 519 of the National Defense Authorization Act of 
1994 (NDAA) require the information in this addendum. Section 517 
requires a report relating to implementation of the pilot program for 
Active component support of the Reserves under section 414 of the NDAA 
of 1992 and 1993. Section 519 requires a detailed presentation 
concerning the Army National Guard (ARNG), including information 
relating to implementation of the ARNG Combat Readiness Reform Act 
(ANGCRRA) of 1992 (title XI of Public Law 102-484, referred to in this 
addendum as ANGCRRA). Section 704 of the NDAA amended section 519 
reporting. Included is the U.S. Army Reserve information using section 
519 reporting criteria. The data included in the report is information 
that was available September 30, 2011.
Section 517(b)(2)(A)
    The promotion rate for officers considered for promotion from 
within the promotion zone who are serving as Active component advisors 
to units of the Selected Reserve of the Ready Reserve (in accordance 
with that program) compared with the promotion rate for other officers 
considered for promotion from within the promotion zone in the same pay 
grade and the same competitive category, shown for all officers of the 
Army.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            Fiscal year 2010                                         Fiscal year 2011
                                       -----------------------------------------------------------------------------------------------------------------
                                          Active component in                     Army average     Active component in                     Army average
                                           Reserve  component    Percentage \1\  percentage \2\     Reserve  component    Percentage \1\  percentage \2\
--------------------------------------------------------------------------------------------------------------------------------------------------------
Major.................................  57 of 67...............           85.1            92.1   73 of 86...............           84.9            93.3
Lieutenant Colonel....................  10 of 12...............           83.3            88.7   6 of 11................           54.5            86.8
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Active component officers serving in Reserve component assignments at time of consideration.
\2\ Active component officers not serving in Reserve component assignments at the time of consideration.

Section 517(b)(2)(B)
    The promotion rate for officers considered for promotion from below 
the promotion zone who are serving as Active component advisors to 
units of the Selected Reserve of the Ready Reserve (in accordance with 
that program) compared in the same manner as specified in subparagraph 
(A) (the paragraph above).

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            Fiscal year 2010                                         Fiscal year 2011
                                       -----------------------------------------------------------------------------------------------------------------
                                          Active component in                     Army average     Active component in                     Army average
                                           Reserve  component    Percentage \1\  percentage \2\     Reserve  component    Percentage \1\  percentage \2\
--------------------------------------------------------------------------------------------------------------------------------------------------------
Major.................................  6 of 123...............            4.9             5.7   3 of 57................            5.3             8.7
Lieutenant Colonel....................  0 of 7.................  ..............           10.7   0 of 10................  ..............            3.5
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Below-the-zone Active component officers serving in Reserve component assignments at time of consideration.
\2\ Below-the-zone Active component officers not serving in Reserve component assignments at time of consideration.

Section 519(b)
    1. The number and percentage of officers with at least 2 years of 
Active Duty before becoming a member of the ARNG or the U.S. Army 
Reserve Selected Reserve units.
      Army National Guard Officers.--21,425 or 49.2 percent of which 
        1,429 were fiscal year 2011 accessions.
      Army Reserve Officers.--9,888 or 33 percent of which 389 were 
        fiscal year 2011 accessions.
    2. The number and percentage of enlisted personnel with at least 2 
years of Active Duty before becoming a member of the ARNG or the U.S. 
Army Reserve Selected Reserve units.
      Army National Guard Enlisted.--95,375 or 30 percent of which 
        7,243 were fiscal year 2011 accessions.
      Army Reserve Enlisted.--35,796 or 21 percent of which 3,524 were 
        fiscal year 2011 accessions.
    3. The number of officers who are graduates of one of the service 
academies and were released from Active Duty before the completion of 
their Active-Duty service obligation and, of those officers:
    a. The number who are serving the remaining period of their Active-
Duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
      In fiscal year 2011, there was one Service Academy graduate 
        released from Active Duty before completing their obligation to 
        serve in the Army Reserve.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
      In fiscal year 2011, under section 1112(a)(2) of ANGCRRA the 
        Secretary of the Army granted no waivers to the Army National 
        Guard.
      In fiscal year 2011, under section 1112(a)(2) of ANGCRRA the 
        Secretary of the Army granted one waiver to the Army Reserve. 
        The waiver provided the soldier an opportunity to play a 
        professional sport and complete service obligation.
    4. The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps (ROTC) graduates and were released 
from active duty before the completion of their Active-Duty service 
obligation and, of those officers:
    a. The number who are serving the remaining period of their Active-
Duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
      In fiscal year 2011, there were no distinguished ROTC graduates 
        serving the remaining period of their Active-Duty service 
        obligation as a member of the Selected Reserve.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
      In fiscal year 2011, the Secretary of the Army granted no 
        waivers.
    5. The number of officers who are graduates of the ROTC program and 
who are performing their minimum period of obligated service in 
accordance with section 1112(b) of ANGCRRA by a combination of 2 years 
of Active Duty and such additional period of service as is necessary to 
complete the remainder of such obligation served in the National Guard 
and, of those officers, the number for whom permission to perform their 
minimum period of obligated service in accordance with that section was 
granted during the preceding fiscal year:
      In fiscal year 2011, there were no graduates released early from 
        an Active-Duty obligation.
    6. The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
First Lieutenant, and of those recommendations, the number and 
percentage that were concurred in by an Active-Duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
Army Reserve data also reported).
      There are no longer Active and Reserve component associations 
        affiliated with ARNG vacancy promotion due to operational 
        mission requirements and deployment tempo. Active component 
        officers no longer concur or nonconcur with unit vacancy 
        promotion recommendations for officers in associated units 
        according to section 1113(a). However, unit vacancy promotion 
        boards have Active component representation.
      In fiscal year 2011, the ARNG recommended 4,286 officers for a 
        position-vacancy promotion and promoted 2,318.
      In fiscal year 2011, the Army Reserve recommended 85 officers for 
        a position-vacancy promotion and promoted 85.
    7. The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for noncommissioned 
officers and the reason for each such waiver.
      In fiscal year 2011, the ARNG had a total of 44 soldiers that 
        received a military education waiver. The waivers were granted 
        based on noncompletion of the Warrior Leader Course (WLC) due 
        to assignment to a Warrior Transition Unit (WTU) (``medical 
        hold'' or ``medical hold-over'' units); and noncompletion of 
        the Advanced Leader Course (ALC) or Senior Leader Course (SLC) 
        due to deployment or training schedule constraints.
      In fiscal year 2011, the Army Reserve had a total of 257 soldiers 
        who received a military education waiver. Of these, 89 were 
        sergeants (SGTs) in need of a waiver for WLC as a result of 
        being deployed or assigned to WTUs (medical hold or medical 
        hold-over units) because of a medical condition incurred in 
        direct support of Contingency Operations while otherwise 
        eligible for promotion, if recommended. Furthermore, 155 
        waivers for ALC and 13 waivers for SLC were granted to soldiers 
        otherwise eligible for consideration but lacking the 
        prerequisite level of Noncommissioned Officer Education System 
        (NCOES) schooling as a direct result of operational deployment 
        conflicts or inability of the Army to schedule the course.
      The Secretary of the Army has delegated the authority for the 
        waivers referred to in section 114(a) of ANGCRRA to the 
        Director, ARNG and to the Commander, U.S. Army Reserve Command 
        (USARC). The National Guard Bureau (NGB), and the USARC 
        maintain details for each waiver.
    8. The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and nondeployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the ARNG who have not completed the minimum training 
required for deployment or who are otherwise not available for 
deployment. (Included is a narrative summary of information pertaining 
to the Army Reserve.)
      In fiscal year 2011, the ARNG had 49,454 soldiers considered 
        nondeployable for reasons outlined in Army Regulation (AR) 220-
        1, Unit Status Reporting (e.g., initial entry training; medical 
        issues; medical nonavailability; pending administrative or 
        legal discharge; separation; officer transition; 
        nonparticipation or restrictions on the use or possession of 
        weapons and ammunition under the Lautenberg amendment). NGB 
        maintains the detailed information.
      In fiscal year 2011, the Army Reserve had 34,180 soldiers 
        considered nondeployable for reasons outlined in AR 220-1, Unit 
        Status Reporting (e.g., initial entry training; medical issues; 
        medical nonavailability; pending administrative or legal 
        discharge; separation; officer transition; nonparticipation or 
        restrictions on the use or possession of weapons and ammunition 
        under the Lautenberg amendment). USARC maintains the detailed 
        information.
    9. The number of members of the ARNG, shown for each State, that 
were discharged during the previous fiscal year pursuant to section 
1115(c)(1) of ANGCRRA for not completing the minimum training required 
for deployment within 24 months after entering the National Guard. 
(Army Reserve data also reported.)
      A total of 445 ARNG soldiers, with at least 24-months time in 
        ARNG, were losses in fiscal year 2011 due to lack of minimum 
        required military education. The breakdown is 265 enlisted and 
        180 officers.
      The number of Army Reserve soldiers discharged during fiscal year 
        2011 for not completing the minimum training required for 
        deployment within 24 months after entering the Army Reserve is 
        24 officers and 5 enlisted soldiers. Under AR 135-175, 
        Separation of Officers, separation actions are necessary for 
        officers who have not completed a basic branch course within 36 
        months after commissioning. Under AR 135-178, Separation of 
        Enlisted Personnel, separation actions are necessary for 
        soldiers who have not completed the required initial-entry 
        training within the first 24 months.
    10. The number of waivers, shown for each State, that were granted 
by the Secretary of the Army during the previous fiscal year under 
section 1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) 
of ANGCRRA described in paragraph (9), together with the reason for 
each waiver.
      In fiscal year 2011, there were no waivers granted Secretary of 
        the Army to the ARNG under section 1115(c)(2) of ANGCRRA of the 
        requirement in section 1115(c)(1) of ANGCRRA described in 
        paragraph (9).
      In fiscal year 2011, there were 210 waivers granted by the Chief, 
        Army Reserve. The Army Reserve was delegated the authority to 
        grant waivers for personnel who did not complete the minimum 
        training required for deployment within 24 months after 
        entering the Army Reserve. The reasons for waivers were 
        categorized as Hardship, Medical, or Administrative (i.e. 
        failed height/weight standards, failed to obtain driver 
        license, accepted ROTC scholarship, temporary disqualified, and 
        failed to complete high school).
    11. The number of ARNG members, shown for each State, (and the 
number of Army Reserve members), who were screened during the preceding 
fiscal year to determine whether they meet minimum physical profile 
standards required for deployment and, of those members:
    --the number and percentage who did not meet minimum physical 
profile standards for deployment; and
    --the number and percentage who were transferred pursuant to 
section 1116 of ANGCRRA to the personnel accounting category described 
in paragraph (8).
    a. The number and percentage who did not meet minimum physical 
profile standards required for deployment:
      In fiscal year 2011, 256,696 ARNG soldiers underwent a Periodic 
        Health Assessment (PHA). There were 14,305 (3.9 percent of the 
        soldiers who underwent PHA) personnel identified for review due 
        to a profile-limiting condition or failure to meet retention 
        standards.
      In fiscal year 2011, 124,785 Army Reserve soldiers underwent a 
        PHA. There were 14,948 (12 percent of the soldiers who 
        underwent PHA) personnel identified for review due to a profile 
        limiting condition or failure to meet retention standards.
    b. The number and percentage that transferred pursuant to section 
1116 of ANGCRRA to the personnel accounting category described in 
paragraph (8).
      In fiscal year 2011, the ARNG transferred all 14,305 soldiers to 
        a medically nondeployable status who were identified for a 
        review due to a profile limiting condition or failure to meet 
        retention standards.
      In fiscal year 2011, the Army Reserve transferred 15,826 soldiers 
        to a medically nondeployable status who were identified for a 
        review due to a profile limiting condition or failure to meet 
        retention standards.
      On August 23, 2010, Department of the Army implemented medical 
        readiness categories (MRC) per AR 40-501 which replaced fully 
        medically ready (FMR) as the metric for measuring individual 
        medical readiness (IMR) in the Army. This new way of measuring 
        medical readiness by classifying soldiers into MRC reduced the 
        number of soldiers considered medically not ready in the ARNG 
        in fiscal year 2011. Soldiers previously listed as not ``fully 
        medically ready'' because they didn't have current 
        immunizations, medical warning tags, DNA, and a current HIV 
        test on file are now considered ``medically ready'' and 
        identified as MRC 2 (which is correctable within 72 hours). The 
        data is generated from MEDPROS, the medical readiness database 
        of record for the Army.
    12. The number of members and the percentage total membership of 
the ARNG shown for each State who underwent a medical screening during 
the previous fiscal year as provided in section 1117 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), division A, title VII, section 
        704(b), February 10, 1996, repealed section 1117 of ANGCRRA.
    13. The number of members and the percentage of the total 
membership of the ARNG shown for each State who underwent a dental 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA.
      Public Law 104-106 (NDAA 1996), division A, title VII, section 
        704(b), February 10, 1996, repealed section 1117 of ANGCRRA.
    14. The number of members and the percentage of the total 
membership of the ARNG shown for each State, older than the age of 40 
who underwent a full physical examination during the previous fiscal 
year for purposes of section 1117 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), division A, title VII, section 
        704(b), February 10, 1996, repealed section 1117 of ANGCRRA.
    15. The number of units of the ARNG that are scheduled for early 
deployment in the event of a mobilization, and of those units, the 
number that are dentally ready for deployment in accordance with 
section 1118 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), division A, title VII, section 
        704(b), February 10, 1996, repealed section 1118 of ANGCRRA.
    16. The estimated postmobilization training time for each ARNG 
combat unit (and Army Reserve unit), and a description, displayed in 
broad categories and by State of what training would need to be 
accomplished for ARNG combat units (and Army Reserve units) in a 
postmobilization period for purposes of section 1119 of ANGCRRA.
      The January 19, 2007 Secretary of Defense Memorandum, 
        ``Utilization of the Total Force,'' limited Reserve component 
        unit mobilizations to 400-day periods, including 30-days 
        postmobilization leave, and 5 days out-processing. The most 
        significant impact of this policy change to the ARNG is the 
        inclusion of postmobilization training time during the 400-day 
        mobilization period.
      Timely alert for mobilizations--at least 1 year prior--is crucial 
        to the ARNG's mission success. Under the ARFORGEN model, many 
        training tasks previously conducted during the postmobilization 
        phase now occur in local training areas before mobilization. 
        First Army (1A), in the continental United States (CONUS), 
        manages and directs postmobilization training for Reserve 
        component conventional forces. 1A, in theater, conducts the 
        theater-specified training required and confirms the readiness 
        of mobilized units waiting to deploy.
      ARNG training and Army Reserve training complies with the 
        ARFORGEN model of progressive training over multiyear cycles 
        and reflects the Army Training Strategy. Units move through the 
        ARFORGEN cycle in three force pools (reset, train/ready, and 
        available). Training progresses through these force pools with 
        the initial focus on individual and leader training, migrating 
        to low-level unit and battle staff, and finally culminating in 
        multi-echelon, combined-arms exercises in the ready year.
      All ARNG units are ``Combat Units.'' Forces Command Pre-
        Deployment Training, in support of combatant commands' 
        guidance, identifies four categories of deploying units:
        --Category (CAT) 1 includes units that would rarely, if ever, 
            travel off a Contingency Operating Base/Forward Operating 
            Base (COB/FOB);
        --CAT 2 includes units that will, or potentially will, travel 
            off a COB/FOB for short durations;
        --CAT 3 includes units that travel and conduct the majority of 
            their missions off a COB/FOB; and
        --CAT 4 consists of maneuver units with an area of operations 
            (such as brigade combat teams).
      The premobilization tasks increase by category, up to CAT 4. A 
        unit's postmobilization training time depends on the number of 
        the premobilization tasks completed during premobilization. 
        Army goals for postmobilization training for Reserve component 
        headquarters and combat support/combat service support units 
        range from 15 to 45 days, depending on the type and category of 
        the unit (Note: This time does not include administrative and 
        travel days). Any premobilization tasks not completed during 
        the premobilization phase must be completed at a mobilization 
        station. ARNG typically sends units to a mobilization station 
        with a premobilization task completion rate of 90-95 percent. 
        Smaller ARNG units typically arrive at mobilization station 
        100-percent complete.
      Postmobilization training conducted by First Army (1A) typically 
        consists of:
        --theater orientation;
        --rules of engagement and escalation-of-force training;
        --counterinsurgency operations;
        --counter-improvised-explosive-device training;
        --convoy live-fire exercises; and
        --completion of any theater-specified training not completed 
            during the premobilization period.
      Postmobilization training days for a CAT 4 unit range from 50-65 
        days training at mobilization station. This training supports a 
        Combat Training Center culminating training event during 
        postmobilization that a CAT 4 unit is required to perform in 
        order to be validated and deployed (National Training Center or 
        Joint Readiness Training Center; 30-day training exercises).
      Below is an outline depicting postmobilization training day goals 
        for various units.

           FIRST ARMY-APPROVED POSTMOBILIZATION TRAINING PLANS
------------------------------------------------------------------------
                                       Postmobilization training days
                                  --------------------------------------
                                     Current        Goal        Delta
------------------------------------------------------------------------
 I/H/S Brigade Combat Team.......           63           45          +18
Combat Aviation Brigade..........           33           60          -27
Military Police (Internment/                27           40          -13
 resettlement)...................
Engineer Battalion (Route                   37           40           -3
 clearance)......................
Military Police Company..........           30           40          -10
Quartermaster Company............           23           15           +8
Engineer Company (Construction)..           29           40          -11
Transportation Company (Heavy               37           40           -3
 equipment transportation).......
------------------------------------------------------------------------

      The Army Reserve (AR) Command in conjunction with 1A, Forces 
        Command (FORSCOM) and Headquarters Department of the Army 
        (HQDA) are in the process of transitioning the business rules 
        for pre- and postmobilization training for Army Reserve 
        formations deploying in support of overseas contingency 
        operations (OCO). This is motivated in order to meet the intent 
        behind FRAGO 4 to HQDA EXORD 150-08 (RC Deployment 
        Expeditionary Force (DEF) Pre and Postmobilization Training 
        Strategy), the January 19, 2007 SECDEF Memorandum, 
        ``Utilization of the Total Force'' and the August 4, 2011 
        Secretary of the Army Memorandum, ``Army Deployment Period 
        Policy.''
      Both the current and projected models are listed below, but both 
        exclude all individual skills training, to include PME, MOSQ 
        and functional training. The bulk of individual skills training 
        will remain a premobilization requirement and would consist of 
        24 days of Inactive Duty Training, 15-29 days of Annual 
        Training for Collective Training, and, under the current model, 
        21 additional days of Active Duty Training individual training 
        (Army Warrior Tasks (AWTs), Theater Specific Required Training 
        (TSRT)). Under the projected model, the 21 additional days 
        would be eliminated. Some formations, under the current model, 
        used up to 74 days premobilization to obtain a T2 rating prior 
        to mobilization and up to 60 days postmobilization to achieve a 
        T1 rating. Below is an average of current pre- and 
        postmobilization training models which will expire September 
        30, 2012. To reduce the demand on soldiers in a premobilization 
        status, 1A will assume the training responsibility for many of 
        the AWTs and TSRT on October 1, 2012. AR units will mobilize at 
        no less than a T3 rating. The shift in training strategy is for 
        DEF units only and will increase current postmobilization days 
        by a projected 10 days.

----------------------------------------------------------------------------------------------------------------
                                                                        Average
             Category \1\                      Average              postmobilization          Average  total
                                           premobilization              training             postmobilization
----------------------------------------------------------------------------------------------------------------
Current model:
    1................................                  65 days                  17 days                  30 days
    2................................                  60 days                  22 days                  34 days
    3................................                  56 days                  33 days                  46 days
Projected model:
    1................................                    39-45                  27 days              40 days \2\
    2................................                    39-45                  32 days              44 days \2\
    3................................                    39-45                  43 days              56 days \2\
----------------------------------------------------------------------------------------------------------------
\1\ No CAT 4 formations in the AR.
\2\ Some formations may require up to 70 days post-MOB to achieve T1 and satisfy COCOM requirements.

    17. A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of ARNG (and the Army 
Reserve).
      During fiscal year 2011, the ARNG continued to synchronize the 
        use of existing and ongoing live, virtual, and constructive 
        training aids, devices, simulations, and simulators (TADSS) 
        programs with the training requirements of the ARFORGEN 
        training model. By synchronizing the use of TADSS with 
        ARFORGEN, ARNG continues to improve unit training proficiency 
        prior to mobilization.
      To support the training requirements of M1A1 Abrams and M2A2 
        Bradley equipped brigade combat teams (BCTs) the ARNG is 
        continuing to field and train using the Conduct of Fire 
        Trainer-Situation Awareness (COFT-SA) and the Mobile-Conduct of 
        Fire Trainer Situation Awareness (M-COFT-SA). Due to the 
        geographical dispersion of units, ARNG has developed the M-
        COFT-SA trainer as a mobile solution to fulfill training gaps. 
        ARNG continued fielding Tabletop Full-Fidelity Trainers and is 
        fielding the Bradley Advanced Training System (BATS) for the 
        M2A2 units. When fully fielded, these devices, in addition to 
        the Conduct of Fire Trainer Advanced Gunnery Trainer System 
        (CAGTS) will be the primary simulation trainers to meet the 
        virtual gunnery requirements of M1A1 and M2A2/A3 crews.
      In order to train all ARNG units on the tactics, techniques, and 
        procedures (TTPs) of convoy operations and meet unstabilized 
        gunnery requirements, ARNG has fielded the Virtual Convoy 
        Operations Trainer (VCOT). The VCOT, through the use of 
        software databases, provides commanders with a unique and 
        critical mission rehearsal tool. In addition, ARNG has added an 
        Individual Gunnery Trainer (IGT) to train individual and crew 
        drills for .50 caliber and MK19 unstabilized gunnery tasks 
        listed in the HBCT gunnery manual. Currently, all 54 States and 
        territories have received the VCOT capability. The IGT is an 
        initiative that is currently being fielded; to date 140 IGT 
        systems have been fielded to ARNG units.
      ARNG is currently fielding the Operation Driver Simulator that 
        trains transportation tasks in a family of vehicles, at both 
        the unit and institutional levels.
      ARNG has just completed the Army Training Support Command 
        directed upgrades to the Call For Fire Trainer II (CFFT II). 
        The CFFT II trains Artillery Soldiers and observers of indirect 
        fires on critical skills prior to live fire requirements.
      To meet basic and advanced rifle marksmanship requirements, ARNG 
        is continuing to field the Engagement Skills Trainer (EST 
        2000). This system is the Army's approved marksmanship training 
        device. ARNG is also continuing the use of its previously 
        procured Fire Arms Training System (FATS) until EST 2000 
        fielding is completed. EST 2000 and FATS also provides static 
        unit collective gunnery and tactical training, and shoot/don't 
        shoot training. The Army is currently rewriting the strategy 
        for the EST 2000 to include ARNG initiative of the mobile EST 
        to accommodate the geographical troop dispersion of ARNG. These 
        systems also support units conducting vital homeland defense 
        missions.
      ARNG supplements its marksmanship-training strategy with the 
        Laser Marksmanship Training System (LMTS). The use of LMTS 
        helps to develop and maintain basic marksmanship skills, 
        diagnose and correct problems, and assess basic and advanced 
        skills. ARNG has more than 900 systems fielded down to the 
        company level. LMTS is a laser-based training device that 
        replicates the firing of the soldier's weapon without live 
        ammunition.
      The Improvised Explosive Device Effects Simulator (IEDES) 
        supports the training requirements for the detection, reaction, 
        classification, prevention, and reporting of Improvised 
        Explosive Devices. The IEDES kits consist of pyrotechnic and/or 
        nonpyrotechnic training devices to achieve scalable signature 
        effects. ARNG is currently fielded 258 total IEDES kits, of 
        which, 194 are nonpyrotechnic kits (A-kits) and 64 are 
        pyrotechnic kits (B-kits). This distribution includes 53 ARNG 
        training sites across 39 States and territories. They have 
        received fielding, New Equipment Training (NET) and life-cycle 
        sustainment as of third-quarter fiscal year 2012. ARNG-TRS is 
        continuing the effort to identify and fill requirements based 
        on the recently completed (first quarter, 2012) TADSS Mission 
        Essential Requirements (MER) review. The latest IEDES 
        innovation is the fielding of the IEDES Transit Cases to 
        support less than company size training scenarios.
      ARNG continues to develop its battle command training capability 
        through the Mission Command Training Support Program (MCTSP). 
        This program provides live, virtual, constructive, and gaming 
        (LVC&G) training support at unit home stations via mobile 
        training teams. Units can also train at Mission Training 
        Complexes (MTC). The MCTSP consists of three MTCs at Camp 
        Dodge, Iowa; Fort Indiantown Gap, Pennsylvania; and Fort 
        Leavenworth, Kansas, and a regional Distributed Mission Support 
        Team (DMST). The Army Campaign Plan 2011 requires the ARNG to 
        train 172 units (Brigade equivalents and above). The MCTSP 
        synchronizes ARNG mission command training capabilities to help 
        units plan, prepare, and execute battle staff training. The 
        objective is to develop proficient battle command staffs and 
        trained operators during premobilization training.
      In order to provide the critical culminating training event for 
        the U.S. Army Forces Command (FORSCOM) ARFORGEN cycle, the ARNG 
        has implemented the Exportable Combat Training Capability 
        (XCTC) Program. The ARNG XCTC program provides Battalion Battle 
        Staff training to the level organized, coupled with a theater 
        immersed, mission-focused training event to certify company 
        level proficiency prior to entering the ARFORGEN Available 
        Force Pool defined as Certified Company Proficiency with 
        demonstrated Battalion Battle Staff proficiency, competent 
        leaders, and trained soldiers prepared for success on the 
        battlefield.
      The Army Reserve continues to develop its ability to integrate 
        live, virtual, constructive and gaming training aids, devices, 
        simulations, and simulators (TADSS) programs with the Army 
        Reserve Training Strategy in order to meet established aim 
        points in our ARFORGEN training model. TADSS play an essential 
        role in our collective training exercises on our installations 
        which help support our transition from a strategic to an 
        operational Army Reserve and meet our ARFORGEN aim point of 
        providing units at T2 readiness in the available year. Just as 
        critical, TADSS also support our individual soldier training at 
        home station, local training areas, and institutions. By 
        synchronizing the use of TADSS with ARFORGEN, the Army Reserve 
        continues to improve unit training proficiency and ensures we 
        meet our requirement to provide the combatant commanders with 
        trained units and proficient battle staffs.
      The Warrior and Combat Support Training Exercises are the Army 
        Reserve's major collective training exercises conducted on Army 
        Reserve installations. These exercises integrate live and 
        constructive environments to train senior battle staffs while 
        lower echelon units conduct company and platoon lanes. The Army 
        Reserve has made sizable investments in improving the facility 
        infrastructure at Fort Hunter Liggett and Fort McCoy to support 
        the use of TADSS in these and future exercises. The 75th 
        Mission Command Training Division is utilizing the Entity-level 
        Resolution Federation to provide a high-resolution (e.g., 
        individual soldier-level fidelity aggregated to unit 
        resolutions) joint constructive battle staff training 
        simulation.
      The Army Reserve also utilizes TADSS to assist individual 
        soldiers in maintaining their technical and tactical 
        proficiency. These TADSS assist soldiers in training on 
        individual pieces of equipment and in sharpening their 
        battlefield skills.
      Low-density simulators continue to be employed to reduce 
        expensive ``live'' time for unique combat service support 
        equipment. For example, Army Reserve watercraft units train on 
        the Maritime Integrated Training System (MITS), a bridge 
        simulator that not only trains vessel captains but the entire 
        crew of Army watercraft. Other simulators include locomotive 
        simulators used by Army Reserve railroad units and a barge 
        derrick simulator for transportation terminal units.
      Use of the Laser Marksmanship Training System (LMTS) and 
        Engagement Skills Trainer 2000 (EST 2000) remain essential 
        elements of the Army Reserve marksmanship training strategy. 
        During fiscal year 2011, the Army Reserve fielded more than 529 
        LMTS to 396 Army Reserve facilities to support home station 
        basic marksmanship training for individual and crew served 
        weapons. The system allows the soldier to use their assigned 
        weapon, as well as crew served weapons, in a simulation/
        training mode. In fiscal year 2011, the Army Reserve also 
        fielded the EST 2000 to 21 Army Reserve facilities. The EST 
        2000 provides initial and sustainment marksmanship training, 
        static unit collective gunnery and tactical training, and 
        shoot/don't shoot training.
    18. Summary tables of unit readiness, shown for each State, (and 
for the Army Reserve), and drawn from the unit readiness rating system 
as required by section 1121 of ANGCRRA, including the personnel 
readiness rating information and the equipment readiness assessment 
information required by that section, together with:
    a. Explanations of the information:
      Readiness tables are classified and can be provided upon request. 
        The Department of the Army, G-3, maintains this information. 
        The States do not capture this data. The information is 
        maintained in the Defense Readiness Reporting System--Army.
    b. Based on the information shown in the tables, the Secretary's 
overall assessment of the deployability of units of ARNG (and Army 
Reserve), including a discussion of personnel deficiencies and 
equipment shortfalls in accordance with section 1121:
      Summary tables and overall assessments are classified and can be 
        provided upon request. The Department of the Army, G-3, 
        maintains this information. The information is maintained in 
        the Defense Readiness Reporting System--Army.
    19. Summary tables, shown for each State (and Army Reserve), of the 
results of inspections of units of ARNG (and Army Reserve) by 
Inspectors General or other commissioned officers of the regular Army 
under the provisions of section 105 of title 32, together with 
explanations of the information shown in the tables, and including 
display of:
    a. The number of such inspections;
    b. Identification of the entity conducting each inspection;
    c. The number of units inspected; and
    d. The overall results of such inspections, including the 
inspector's determination for each inspected unit of whether the unit 
met deployability standards and, for those units not meeting 
deployability standards, the reasons for such failure and the status of 
corrective actions.
      During fiscal year 2011, Inspectors General and other 
        commissioned officers of the regular Army conducted 1,219 
        inspections of the ARNG. Regular Army officers assigned to the 
        respective States and territories as Inspectors General 
        executed the bulk of these inspections (959). Of the remaining 
        126 inspections, the U.S. Army Forces Command (FORSCOM), 
        Communications-Electronics Command (CECOM), and other external 
        inspection agencies conducted 104. Because the inspections 
        conducted by Inspectors General focused on findings and 
        recommendations, the units involved in these inspections were 
        not provided with a pass/fail rating. Results of these 
        inspections may be requested for release through the Inspector 
        General of the Army.
      The Army Reserve Office of the Inspector General conducted two 
        assessments within the last 12 months. The first was entitled 
        Property Accountability within the Army Reserve (Directed by 
        the Chief, Army Reserve (CAR)) on January 25, 2011 and final 
        report approved on August 11, 2011). The second assessment 
        entitled Special Assessment of Personnel Transition within the 
        Army Reserve was directed by the CAR on August 11, 2011 and is 
        ongoing (expected final report approval in March 2012). The 
        Army Reserve Office of the Inspector General conducted both 
        assessments. The Army Reserve Inspection General assessed 30 
        units for Property Accountability. As of December 13, 2011, 33 
        units have been assessed as part of the Personnel Transitions 
        Assessment. The overall goal of both assessments was not to 
        evaluate the unit's deployability status. However, out of the 
        total 66 units assessed nothing was found that would cause a 
        unit to be listed as nondeployable. Results of these 
        inspections may be requested for release through the Inspector 
        General of the Army.
    20. A listing, for each ARNG combat unit (and U.S. Army Reserve FSP 
units) of the Active-Duty combat units (and other units) associated 
with that ARNG (and U.S. Army Reserve) unit in accordance with section 
1131(a) of ANGCRRA, shown by state, for each such ARNG unit (and for 
the U.S. Army Reserve) by:
  --the assessment of the commander of that associated Active-Duty unit 
        of the manpower, equipment, and training resource requirements 
        of that National Guard (and Army Reserve) unit in accordance 
        with section 1131(b)(3) of the ANGCRRA; and
  --the results of the validation by the commander of that associated 
        Active-Duty unit of the compatibility of that National Guard 
        (or U.S. Army Reserve) unit with Active Duty Forces in 
        accordance with section 1131(b)(4) of ANGCRRA.
      While the methods employed by the Army to manage the Active 
        component (AC) support to Reserve component (RC) readiness have 
        changed during the last 10 years of persistent conflict, we 
        have met the intent of the Congress as outlined in title XI of 
        the National Defense Authorization Act of 1993, as amended. 
        Every RC unit that deployed during fiscal year 2011 was 
        properly manned, equipped, trained, and certified to meet 
        combatant commander (CCDR) requirements prior to employment 
        overseas and CONUS by supporting processes associated with the 
        ARFORGEN process.
      The Army began its transformation from large, fixed organizations 
        (divisions and corps) to a modular, brigade-centric 
        organization in 2004. At the same time, and while engaged in 
        persistent conflict, it began transforming the way it executes 
        the training and readiness of modular units--both AC and RC--to 
        meet CCDR requirements. As such, modular force transformation 
        and the implementation of the ARFORGEN process precludes a 
        response in the format directed by title 10, U.S.C. 10542.
      The formal training relationships previously established by the 
        AC/RC Association Program outlined in U.S. Army Forces Command 
        (FORSCOM) Regulation 350-4, ``Active Component/Reserve 
        Component Partnerships,'' were modified as the requirements of 
        ongoing OCO kept AC units in frequent deployments and RC units 
        in frequent mobilization. The deployment tempo problem was 
        solved within the Army's Training Support XXI program by using 
        designated, fully functional, AC-led multicomponent 
        organizations to provide the necessary contact with mobilizing 
        RC units. Since FORSCOM Regulation 350-4 no longer reflected 
        the way the AC partnered with RC units, FORSCOM discontinued 
        its use on July 21, 2010. The legislated roles and 
        responsibilities formerly given to the commanders of associated 
        AC units listed in appendices B and C of that regulation are 
        now executed by the commanders of 1A (FORSCOM's executive agent 
        for Active Army support for the training, readiness, and 
        mobilization of conventional RC units in the continental United 
        States); the 196th Infantry Brigade (U.S. Army Pacific's 
        executive agent for the training and readiness of conventional 
        RC units located in the Pacific Command's area of 
        responsibility); and the U.S. Army Europe (USAREUR) for the 
        training and readiness of conventional RC units located in the 
        European Command's area of responsibility.
      In 2011, the Army published Army Regulation (AR) 525-29, 
        ARFORGEN, which institutes the structured progression of unit 
        readiness over time to produce trained, ready, and cohesive 
        units prepared for operational deployment in support of CCDR 
        and other Army requirements. This regulation was a 
        collaborative effort between FORSCOM, U.S. Army Training and 
        Doctrine Command, the ARNG, and the U.S. Army Reserve Command 
        to meet the progressive readiness demands of an Army engaged in 
        persistent conflict. Within ARFORGEN, all rotational Active 
        Army, ARNG, and Army Reserve units cycle through three ARFORGEN 
        force pools--Reset, Train/Ready, and Available--and are 
        designated either for deployment to a validated CCDR 
        operational requirement as a Deployment Expeditionary Force 
        (DEF) or for the execution of a contingency mission, 
        operational plan, or other validated Army requirement as a 
        Contingency Expeditionary Force (CEF).
      For the RC, this pertains to all modular division headquarters, 
        brigade combat teams, multifunctional and functional support 
        brigades (headquarters only), as well as modular units at the 
        battalion to detachment level that comprise the critical 
        enablers for operational missions. Assessments of the manpower, 
        equipment, and training resource requirements of these RC units 
        and validation of their compatibility with AC forces (as 
        required by sections 1131(b)(3) and 1131(b)(4) of the ARNGCRRA 
        of 1992) are executed and maintained by 1A, the 196th Infantry 
        Brigade, and USAREUR as the RC unit progresses through the 
        ARFORGEN process into the deployment window.
      Fiscal year 2011 also found the Army at an inflection point in 
        which strategic conditions have signaled a future change in 
        demand across the range of military operations (DEF to CEF). RC 
        will figure prominently in the Army's response to these 
        changes. ARFORGEN is the process that will produce trained and 
        ready RC units that are organized, manned, trained, and 
        equipped, as integral members of the total force, compatible 
        with their AC counterparts, to provide predictable, recurring 
        and sustainable capabilities for the Nation's security 
        requirements. The Army does not foresee a return to the legacy 
        construct of associated units.
    21. A specification of the Active-Duty personnel assigned to units 
of the Selected Reserve pursuant to section 414(c) of the National 
Defense Authorization Act for fiscal years 1992 and 1993 (10 U.S.C. 261 
note), shown by State for the ARNG (and for the U.S. Army Reserve); by 
rank of officers, warrant officers, and enlisted members assigned; and 
by unit or other organizational entity of assignment.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      Title XI (fiscal year 2011) authorizations             Title XI (fiscal year 2011) assigned
                                                 -------------------------------------------------------------------------------------------------------
                                                                              Warrant                                             Warrant
                                                    Officers     Enlisted     officers      Total       Officers     Enlisted     officers      Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
U.S. Army Reserve...............................           97          110            8          215           12           18  ...........           30
TRADOC..........................................           50            3  ...........           53           36            3  ...........           39
FORSCOM.........................................        1,033        2,165          101        3,299          696        1,925          102        2,723
USARPAC.........................................           30           49            1           80           30           41            9           80
                                                 -------------------------------------------------------------------------------------------------------
      Total.....................................        1,210        2,327          110        3,647          774        1,987          111        2,872
--------------------------------------------------------------------------------------------------------------------------------------------------------

      As of September 30, 2011, the Army had 2,872 Active component 
        soldiers assigned to title XI positions. In fiscal year 2006, 
        the Army began reducing authorizations in accordance with the 
        National Defense Authorization Act of 2005 (Public Laws 108-
        767, section 515). Army G-1 and U.S. Army Human Resources 
        Command carefully manages the authorizations and fill of title 
        XI positions. The data is not managed or captured by state--the 
        previous table above provides the best representation of how 
        title XI positions are dispersed and utilized.

    Chairman Inouye. Mr. Secretary, thank you very much for 
your very generous remarks. May I now call upon General 
Odierno?

STATEMENT OF GENERAL RAYMOND T. ODIERNO, CHIEF OF STAFF
    General Odierno. Thank you, Chairman, Vice Chairman 
Cochran, and the rest of the members of the subcommittee. Thank 
you very much for allowing me to be here.
    I want to start out by also thanking you for your steadfast 
support of our soldiers and their families, especially during 
these last 10 years, as we've been involved in a significant 
amount of combat operation. Without your support, we would not 
be able to do the things we're doing, and we would not be able 
to take care of our soldiers and families. So, thank you so 
much for your support.
    I also appreciate the vote of confidence from Secretary 
McHugh. I believe in the Army we have a great civilian-military 
team, led by Secretary McHugh. His experience and wisdom has 
helped me as I've come onboard as the Chief of Staff of the 
Army, and I know together we will walk forward to work many of 
these issues that face the Army in the future. And I am 
confident that in the end, the Army will remain the best land 
force in the world, and I look forward to continue to work with 
him as we move forward.
    It's an honor to sit here today representing our 1.1 
million soldiers, our nearly 300,000 Army civilians, as well as 
the 1.4 million family members. I'm extremely proud of their 
commitment, their professionalism, and resiliency of our 
soldiers and their sacrifice and accomplishments.
    Today, we remain in more than 150 countries around the 
world. We are truly a globally engaged army, with 95,000 
soldiers deployed, and another 96,000 soldiers forward station, 
conducting a broad range of missions around the world.

                          ARMY GLOBAL STRATEGY

    But our Army's primary mission is steadfast and resolute to 
fight and win our Nation's wars. And as the Army continues to 
transition, we will ensure the President's 2012 defense 
strategic priorities are implemented, by first meeting our 
current commitments in Afghanistan and elsewhere by ensuring a 
highly trained, properly equipped, and well-manned force. Now 
that operations in Iraq are complete, and we continue surge 
recovery in Afghanistan, we will help shape the regional 
environs in support of the combatant commanders, as well as the 
strategic environment.
    In the Asia-Pacific, which is home of 7 of the 10 largest 
land armies in the world, we are provided an array of tools 
through rotational forces, multilateral exercises, and other 
innovative engagements with our allies and new partners. We 
currently have some 66,000 soldiers and almost 10,000 civilians 
in this region today.
    During a time of great uncertainty in the Middle East, we 
remain committed and prepared to ensuring security and 
stability across the spectrum of conflict through our 
rotational presence and all available means necessary. And in 
Europe, as we inactivate two brigade combat teams (BCTs), one 
in 2013 and one in 2014, we will compensate through a series of 
engagement tools to build and sustain relationships with our 
European and North Atlantic Treaty Organization (NATO) allies 
and partners. I believe this will serve as a model how I see us 
doing things in the future, a combination of forward station 
and rotational forces, using a tailorable approach by 
regionally aligned forces and prepositioned stocks.

                            ARMY FOCUS AREAS

    As we move forward, we will build on the competency and 
experience that has been gained during the past 10 years by our 
National Guard and Army Reserves in Iraq and Afghanistan, 
through the resourcing of a progressive readiness model in the 
future.
    As we look forward, and the Secretary already touched on 
this a bit, there will be several focus areas that will help 
guide us for the way ahead. Foremost, we'll remain committed to 
our 67,000 war fighters currently in Afghanistan. They continue 
to provide trained, equipped, and ready soldiers to win the 
current fight.
    Next, as the Army becomes leaner, we must continue to build 
on the key characteristics of the future force: Adaptability, 
innovation, flexibility, agility, versatility, and lethality. 
We have to prioritize our efforts as we integrate and 
synchronize our activities as part of the larger joint 
interagency and multinational effort of the future.
    By the end of fiscal year 2017, we will decrease our end-
strength from 570,000 to 490,000 in the Active Army, from 
358,000 to 353,500 in the National Guard, and from 206,000 to 
205,000 in the Army Reserves. It is imperative for us to 
sustain a gradual ramp during these next 5 years that allow us 
to take care of our soldiers, continue to provide forces for 
Afghanistan, and facilitate reversibility over the next couple 
years, if necessary.
    End-strength above 490,000 is funded strictly through 
overseas contingency operations (OCO) during the next 5 years, 
and must be sustained to help mitigate risk as we continue 
current operations in Afghanistan and simultaneously reset our 
Army for the future.
    We will also reduce our end-strength by a minimum of eight 
BCTs. We are also conducting additional assessments to look at 
reorganizing our brigades to make most efficient use out of our 
combat structure. And we will come back to the subcommittee 
after we can finish our research and our analysis, both the 
Secretary and I will come back and have further conversations 
on this.
    Finally, we will be responsible government stewards through 
energy-cost savings and institutional and acquisition reform. 
We are now taking a fundamentally different approach to how we 
do business with our acquisition reform. I credit Secretary 
McHugh for his diligent efforts with this. We have really made 
some tremendous progress here, in my view.
    For a new affordable and incremental equipping strategy, we 
are making better business deals and better contracts, 
emphasizing competition, and saving even more money as 
government stewards. Our expansion of multiyear contracts, 
firm-fixed-price contracts, and cost-plus-incentive-fee 
contracts have proven substantive cost savings already.
    By more closely linking the development of requirements 
with the acquisition cycle, we are building the flexibility to 
integrate new technologies incrementally. Additionally, we are 
looking to develop more efficient testing and evaluating 
strategies by eliminating redundancies. We will continue our 
equipment reset program to restore unit equipment to a level of 
capability that is commensurate with their future missions. 
There have been more than 1.8 million pieces of equipment reset 
to date, which equates to approximately 31 brigade equivalents 
annually.

                             MODERNIZATION

    Much of what the Army needs to do and much of what we hope 
to be able to do will be reliant upon sustained OCO funding for 
our withdrawal in Afghanistan and for 2 to 3 years afterwards. 
As we continue to transform our modernization practices through 
a holistic bottom-up approach, we have several priorities.
    First is the Network. It is critical to our ability to 
manage information and command our forces at all levels both 
home and abroad, in a multinational and joint context. We made 
significant progress on this critical program through the 
series of network integration evaluation exercises that field 
tested equipment, which are integrated in a system, using our 
soldiers as the testers.
    Second, the ground combat vehicle (GCV), a replacement for 
our infantry fighting vehicle that can accommodate an infantry 
squad, balance mobility and survivability, and provide 
unmatched lethality on the battlefield against current and 
future threats. We've paid close attention to risk reduction in 
this development program by maximizing competition to stimulate 
innovation, support cost containment, and schedule 
requirements, ensuring industry identifies potential pricing 
schedule versus performance tradeoffs, and requiring industry 
to provide cost targets throughout the GCV's lifecycle.
    Our third modernization priority is the more mobile 
survivable network-integrated joint light tactical vehicle 
(JLTV). With both myself and General Amos, we agree it's 
necessary, given the last 10 years of fighting and what future 
operations may entail. We carefully revised our acquisition 
strategy, reduced the schedule for the next developmental phase 
from 48 to 33 months, while reducing the projected cost of the 
program by $400 million.
    Next is lightening the soldier's load, with a focus on the 
squad. There must be continued efforts to give our squads 
superiority on the battlefield, with advanced soldier systems, 
and weapons communications, and protection. There has been 
tremendous progress in the advancement to help lighten the load 
of our individual soldiers. So now we must turn to look at how 
the squad can carry the load smarter. We will continue to look 
at decreasing the weight of our body armor, while increasing 
protection, but we can make more progress by studying how to 
better distribute the load across the squad.
    The budget request for aviation modernization will continue 
to ensure our lift-and-close combat capabilities remain 
effective. These aircraft provide critical support to our joint 
ground forces, special operations community, and our 
international partners.
    Finally, I'd like to point out that in order to achieve 
these priorities within our modernization strategy we'll need 
the help of this subcommittee to ensure timely appropriations 
to reduce production and scheduling delays. The Secretary and I 
will continue to assess and make adjustments to our strategy, 
while addressing any potential risk incurred, as we adjust our 
future force posture.
    I'd like to leave you with one last thought. Sequestration 
is not in the best interest of our national security. The 
Army's share of the cut could be almost $134 billion through 
2017. The impact to the Army could cause up to 100,000 
additional cuts to our end-strength, on top of the 86,000 we 
currently plan to reduce. This would result in severe 
reductions in the National Guard, our Army Reserves, in 
addition to continued reductions in the Active component. It 
will significantly decrease what the Army can do for the joint 
force. In my estimation, sequestration will require us to 
fundamentally relook how we provide national security for our 
Nation.
    Mr. Chairman, members of the subcommittee, thank you again 
for the opportunity to speak here today. This subcommittee 
enables our All-Volunteer Army to be the most decisive land 
force in the world, and we could not do without the support 
that you give us. It's an honor to serve this great Nation and 
stand beside the dedicated professionals of our Army. The 
strength of our Nation is our Army. The strength of our Army is 
our soldiers. And the strength of our soldiers is our families, 
and that's what makes this Army strong.
    Thank you very much, and I look forward to your questions, 
Senator.
    Chairman Inouye. All right. Thank you very much, gentlemen. 
Before we proceed, I'd like to announce that there's a vote 
pending at this moment.
    Senator Hutchison. Mr. Chairman, I'm going to go vote. I 
know Senator Cochran's coming back, and then you'll go vote. I 
do want to have a chance to ask questions, so I'm going to come 
back, but I am going to leave now, so that we can vote and get 
back. We'll be doing a little round-robin here.
    Chairman Inouye. I can assure you that.
    Last January, the Secretary of Defense announced the budget 
plan and said that the Active Army will be reduced by 72,000 in 
the next 5 years. Many of us have privately expressed concerns, 
primarily on the risks that may be involved.
    Can you share with us your thoughts on this matter?

                 END-STRENGTH REDUCTION RISK MITIGATION

    General Odierno. I think one way to mitigate the risk is 
that fact we're going to do this over a 5-year period, and I 
think that helps us to mitigate some of the risks that we have. 
My concerns are, first, we want to be able to take care of our 
soldiers and families. Doing it over a 5-year period helps us 
to reduce the risk to our soldiers and their families, first 
off, because we will be able to do a majority of the reductions 
through national attrition, although, there will be some 
requirements above that.
    Second, it will help us, if we do this over a 5-year 
period, to ensure that we have the forces necessary to continue 
to rotate in Afghanistan, as we continue that commitment.
    And third, if we have to, if we get it wrong, and we have 
to reverse, we can do that easily during the next 2 to 4 years, 
as we execute this strategy.
    The assumptions in the strategy are that we will no longer 
be engaged in large-scale, long-term operations that would be 
over a 5- to 10-year period. That's the risk to this reduction. 
We increased the size of the Army in the 2000s in order to meet 
the requirements of both Iraq and Afghanistan, and because of 
the high operational tempo (OPTEMPO) it was putting on our 
soldiers and our families. Now that we are reducing the size of 
the Army, as long as we are not involved in large-scale 
contingencies over a long period of time, I think we can 
mitigate that risk.
    I do believe we have the capability to conduct two 
simultaneous operations at 490,000, as long as they are not 
over a long duration time period, and that's where the risk 
comes in, Senator.
    Mr. McHugh. Mr. Chairman, may I add a few on that?
    Chairman Inouye. Please do.
    Mr. McHugh. As the Chief noted, the primary consideration 
was that we had sufficient end-strength to meet the new 
security strategy and its expected requirements. And as you 
heard him say, I think we all agree we do.
    But the other thing really goes back to your opening 
comment. You know, the Army is people. And currently, we spend 
about 48 cents of every $1 on our people. And so when we're 
mandated to find, as we went through the Budget Control Act for 
the department, $487 billion over 10 years, we have to find 
reductions in our personnel costs. There's just no other way to 
do it.
    And what we wanted to ensure is that we didn't have 
artificially high end-strength, that our budget was resourcing 
modernization and proper equipping, and the other things that 
are so important, family, medical programs, so that we didn't 
take that path to becoming hollow that we've had so much 
discussion about over the years, and other postconflict 
periods.
    So, we think we're balanced in a way that resist the 
temptation to pump up end-strength at a very high cost of not 
giving the soldiers what they need to complete their mission.
    Thank you, Mr. Chairman.
    Chairman Inouye. Gentlemen, I will have to leave to vote, 
but in the meantime, I'll call upon the Vice Chairman to 
continue the hearing. I'll be back.
    Senator Cochran [presiding]. Thank you, Mr. Chairman. Let 
me ask you a question about the C-27 Joint Cargo Aircraft 
program. There's indication in our briefing paper here that the 
Air Force is suggesting that even though the C-27 was developed 
to provide a unique capability to support Army needs, that that 
could have been managed by the use of C-130 aircraft. I don't 
know whether this is a consensus, or what your reaction to it 
is, but is there a difference of opinion between the Army and 
the Air Force on the C-27 and C-130? We don't need to overdo 
things and buy things we don't need in this time of fiscal 
constraint and pressure on the budget. So, I was just curious 
to know what your reaction to that would be.

                           INTRA-THEATER LIFT

    General Odierno. Thank you, Senator. The Army has a stated 
requirement for intra-theater lift, which we need in places 
like Iraq, Afghanistan, and we've discussed this over time. The 
Army has a C-23 Sherpa program, which, frankly, is getting old 
and, frankly, will no longer be capable of doing the mission we 
need it to in the future. So, we've defined this requirement.
    The Air Force has come back and said we can meet all of 
your intra-theater lift requirements with the C-130. So, we 
have worked with them to develop concepts that will put C-130s 
in direct support of Army units in order to meet these 
requirements.
    So, I would just answer your question by saying we've 
identified the requirement for intra-theater lift. C-27 was one 
solution. The Air Force has come back and said we can solve 
this problem using the C-130. So, we are working with them to 
come up with the procedures in order for us to solve this 
problem using the C-130.
    Senator Cochran. One issue that always is of interest to me 
as we begin this annual review of the budget request for the 
different services is how well we're doing with recruiting and 
retention of the quality of person and candidate for service in 
the U.S. Army. Do we need to consider going back to compulsory 
military service or is the all-volunteer concept alive and well 
and working to suit our national defense needs?

                           ALL-VOLUNTEER ARMY

    Mr. McHugh. Very important question, Senator. I think the 
easy answer to your last point is that the last 10 years pretty 
well proved that the Volunteer Army, in our case, Voluntary 
Military, for this Nation, can meet just about any challenge 
over any duration of time you may put them up against. Having 
said that, we're always concerned about what tomorrow may look 
like, and we track our recruiting, our retention numbers, and 
track the caliber of our recruits as well.
    On the retention side, our problem is, frankly, too many 
people want to stay, and we're going to have to manage that as 
we draw down our end-strength in ways that ensure that we keep 
the very best of the best. And that will be a challenge, 
because we will have to request, as the Chief alluded to, some 
soldiers who meet our minimum standards and requirements, and 
who, in many cases, I'm sure, will have served honorably, but 
ask them to take on new challenges in their lives.
    Our recruiting numbers are better than the nearly 20 years 
I've been in this town. Our numbers of waivers are at historic 
lows. We don't provide major felony waivers any more, contrary 
to the times in the not-so-distant past, when they were not 
normal, but they weren't unheard of. Our high school graduation 
rates are more than 90 percent, higher than the average that is 
maintained here amongst the civilian population. And as they 
have proven time and time again, even our youngest soldiers are 
up to the greatest challenges.
    So, we're always concerned about what a brightening economy 
will mean on our ability to compete with the private sector, 
but to this point, I think things are going very, very well.
    Chief.
    General Odierno. If I could add, Senator, to include our 
ability to recruit officers as well. The numbers at West Point 
are way up. Applicants are way up. The competition is way up. 
The competition at Officer Candidate School (OCS) is at its 
highest level I've ever seen it. Our Reserve Officers Training 
Corps (ROTC) programs are, although we are doing some 
consolidation, are doing very well. So, right now we are in 
good shape. But it's something that we have to constantly 
manage. And as we all know, some of this could be based on some 
of the economic issues and unemployment rates. We have to watch 
this very carefully. There is a lot of interest in serving. So, 
we feel we are doing very, very well in those areas.
    In terms of retention, there will be some people who want 
to stay who probably will not be allowed to stay, as the 
Secretary just talked about, during the next 3 or 4 years. But 
we want to set up programs that allow the best to stay. We want 
to keep the best talent that we have, and we're trying to 
decentralize that decisionmaking process down to the commanders 
in the field, so they can make the decisions on who are the 
best, most qualified to continue to stay and lead our Army into 
the future as we face many of these complex challenges that 
you've outlined.
    Senator Cochran. That is very welcome news and good to 
hear, and also, a reason to compliment the leadership of our 
United States Army and other forces who are providing the 
example and serving in capacities of a very important 
responsibility for our country. I'm sure the soldiers are 
looking up to those they are serving with, or they wouldn't be 
interested in re-enlisting or staying in for a career, as many 
of them are now voluntarily doing. I think it's a tribute to 
our leadership of our military. So, I congratulate you on those 
successes that we've had.
    It was a pleasure for me to serve on the Board of Visitors 
at West Point for a time, and as a matter of fact, I think it 
was one of the best collateral duties I've ever had in the 
Congress, serving on both the Board of Visitors at West Point 
and the board out in Colorado for the Air Force, and the Naval 
Academy board. I really got a great opportunity to meet and get 
to know those who were in charge of our training academies, and 
who were the professors and instructors getting the job done, 
training, and educating the officers of tomorrow, and the 
leaders of tomorrow, the next Secretary of the Army and the 
Joint Chief chairman, and so we appreciate the success we've 
had. And we know that it doesn't just happen by itself, but 
there are a lot of dedicated men and women throughout the Army 
who are helping make this a very important success story.

     UNITED STATES MILITARY ACADEMY AT WEST POINT BOARD OF VISITORS

    General Odierno. Senator, I would just add that last night 
the Cadet Andrew Rodriguez, from West Point, was awarded the 
Sullivan Award, which is given each year to the top leadership 
student athlete in the country for all sports. It's only the 
sixth time that a football player has received it. And 3 out of 
those 6 were from West Point that have received that award over 
time. And I think he's representative of the type of 
individuals that we now have, that are interested in serving 
our country. And we're very proud of these young men and women 
who continue to want to serve. And I think that's just another 
indication of the quality of individuals that we continue to 
get in the Army and West Point.
    Mr. McHugh. I would note, Senator Cochran, that I had the 
honor of serving on that--I guess I still do, but as a Member 
of Congress for 15 years. And you're right. It's a special 
opportunity, and one of those things that few Members of 
Congress get to experience, and it was a great opportunity for 
me.
    I would also note, just for the record, that the gentleman 
on my left is also a West Point grad, and given the football 
team, and Army, Navy, I wish he were back there wearing a 
helmet, but we'll talk about that later.
    Senator Cochran. Do you need time for rebuttal, General?
    General Odierno. I want to be on the record, we're going to 
beat Navy this year.
    Senator Cochran. We're joined again by other members of the 
subcommittee, and I'll yield to the distinguished Senator from 
South Carolina.
    Senator Graham. Thank you. When you said that, John, I 
thought that you were talking about his left, and that would 
have been me.
    I would have been the first guy to get in West Point with 
800 SAT on both parts. The Army's got enough problems without 
having to go down there. Not bad. That's right.
    So to both of you, thanks for being leaders in a time when 
we need leaders. Ten years into this thing, I know people are 
war weary and we're trying to balance a $15 trillion budget 
that's out of whack, and everything's on the table. So, to my 
friends out there who want to argue about what we should do 
with the entitlements, that we should reform them just like 
we're trying to reform the Pentagon, bottom line is, the 
sequestration is just a really bad idea. Both of you already 
said that. Do you agree with that?

                             SEQUESTRATION

    Mr. McHugh. It certainly would have an incredibly 
devastating effect upon our national military.
    Senator Graham. It would really be silly and stupid, right?
    Mr. McHugh. I agree.
    Senator Graham. Yes. Go ahead, John. You can say that.
    Mr. McHugh. I agree with you always, Senator.
    Senator Graham. Okay. Good. Thank you.
    So, we'll find somehow to avoid it. We're not going to put 
that burden on you.
    But the sum total of what we're doing, $470-billion-
something during the next 10 years is no small lift, is it, 
General?
    General Odierno. It is not.
    Senator Graham. Okay. We're going to put 87,000 people out 
of work, I guess. So, just please understand what the military 
is having to do on the Army side. Eighty-seven thousand people 
are going to be put out of work over the next 5 or 6 years, who 
have dedicated themselves to defending the Nation, who are well 
trained, and, you know, make up the 1 percent who serve. So, 
when I hear other agencies and other parts of the Federal 
Government saying that's too much, that's too far, the Defense 
Department is more than paying its fair share, in my view, and 
I'll have to look long and hard if I think 87,000 makes sense.
    Where do you see the potential for future land engagements, 
General, that could have 100,000 troops required? Are there any 
scenarios in mind?
    General Odierno. Well, obviously, we have agreements with 
South Korea, in reference with potential problems with North 
Korea. You know, we have issues across the Middle East, a 
significant amount of instability.
    Senator Graham. The Horn of Africa really went bad. You may 
have to enter these troops. Maybe not 100,000.
    General Odierno. Maybe not 100,000.
    Senator Graham. Let's talk about a scenario where you had 
to commit major land forces after we cut the $487 billion. What 
percentage of a, say, 100,000-person force, in the future, 5, 6 
years from now, would have to come from the Reserves?
    General Odierno. It would depend on the specific situation.
    Senator Graham. Let's say it's an Iraq situation.
    General Odierno. Well, in the beginning phases of a war, 
about 80 percent would be out of the Active, and about 20 
percent out of the Reserves. But as that went on over time, the 
amount of use of the Reserves would increase. So, in the second 
or third year, you would see more Reserve component.
    Senator Graham. So, the truth of the matter is that we 
need, as a nation, to understand that if we go down by 87,000, 
if there are any major land engagements sustained over a period 
of time, the Guard and Reserves are going to be asked to do 
more, not less.
    General Odierno. That is correct.
    Senator Graham. That's just the math, right?
    General Odierno. That is correct, Sir.
    Senator Graham. Okay. Mr. Secretary, stress on the force. 
One, to the soldier who is going to be charged with the murder 
of 16 Afghan civilians, you're highly confident in our military 
justice system.

                          STRESS ON THE FORCE

    Mr. McHugh. I have no doubt about our ability to handle it.
    Senator Graham. And that soldier will be provided whatever 
resources his defense team needs, within reason, to defend him, 
right?
    Mr. McHugh. That is our requirement, and that is our, we 
feel, duty.
    Senator Graham. Now, people talk about stress on the force. 
Do you agree with me that most people in Afghanistan, of any 
senior rank, have had multiple deployments?
    Mr. McHugh. We have in the military at large more than 
50,000 folks in uniform who have had at least four deployments.
    Senator Graham. And this is a severe aberration and does 
not reflect who our men and women are, in terms of their 
behavior under stress. Do you agree with that?
    Mr. McHugh. The fact that this is receiving, 
understandably, so much attention, I think, underscores that 
very fact. Yes, Sir.
    Senator Graham. General, do you agree with that?
    General Odierno. I do agree, Senator.
    Senator Graham. Okay. So now let's talk about where we go, 
in terms of the Congress's role in helping you craft this 
budget. Do you have enough flexibility to make adjustments? 
Let's talk about mental health for our troops, those coming 
back from the theater. If we execute this budget reduction and 
you have 10 years of fighting, and you may have some latent 
stress problems show up down the road, do we have the adequate 
infrastructure in this budget reduction environment to take 
care of issues that may arise down the road from the last 10 
years of fighting?
    Mr. McHugh. From what we can see, there is always, of 
course, as you know, Senator, it's what you don't expect that 
you have to be most troubled by. We have both the facilities, 
the flexibility, and funding to provide for them. The biggest 
challenge on behavioral health we've had are bringing into the 
Army Force structure the behavior health specialists. We've 
been chasing the requirement for a number of years now.
    Senator Graham. I don't want to take too much time, but 
recruiting trained mental health specialists who are subject to 
being deployed is a very big challenge. So, I hope we'll look, 
going within the force and cross-training people. That's one 
way to get more folks. But, if you wanted to serve your country 
as a civilian or a military person, if you're in the mental 
health arena, there's a real demand for your services.
    And the last comment I'd like to make is about stress on 
the force. We've been deployed a lot. It's been a very tough 
time for families. What kind of stress on the force can we 
anticipate from a major reduction in personnel, limited assets? 
And I would just end with this proposition. I think the world 
is getting more dangerous by the day, and the potential 
conflicts that we face are growing, not lessening.
    General, Mr. Secretary, can you describe to me what we can 
expect from a force that's going to be reduced by 87,000? The 
mission possibilities are growing, not lessening. What kind of 
stress does that have on the Force?
    General Odierno. First off, it is, as we have learned, the 
issue becomes the stress of multiple deployments. So, as you 
reduce the force, if we get into a sustained land combat, it 
will, once again, increase the stress on the force. And that's 
a bit of a risk, as we go down, as you mentioned, 87,000. So, 
we have to mitigate that. We've tried to mitigate that by going 
down the 87,000 over a 5-year period, which slows it down, 
which enables us to take care of those soldiers and families as 
we ask them to leave the service, in some cases. And we'll 
hopefully be able to do most of it by attrition, but it won't 
be all by attrition. There will be some people who are, in 
fact, asked to leave over time. So, we're trying to figure out 
the best ways to mitigate that.
    Mr. McHugh. As you know, Senator, rotations, deployments 
are probably the leading cause and the leading stressor. We're 
operating under the assumption, the fact we're out of Iraq and 
a planned phase-down through 2014 in Afghanistan. If that 
should change, obviously, we're going to have to do some re-
evaluation. And then one of the advantages of going through 
this exercise of assigning budget numbers every year is that 
we're provided the opportunity to second guess ourselves, if 
it's required.
    The Chairman has noted that this is really the first 
budget, not just the only budget, of what we view as a 5-year, 
and ultimately a march to 2020, to a time when we're hopefully 
fully modernized as a force.
    Senator Graham. Thank you for your service.
    Senator Inouye [presiding]. Senator Hutchison.
    Senator Hutchison. Well, thank you. First, I want to say to 
General Odierno how much I appreciate everything that you've 
done. Talk about deployments to the tough spots. You've been 
there. I appreciate meeting with you in Iraq twice, and seeing 
what you could do there. And I think that experience has 
certainly given you the base and the background to handle so 
many of these issues and problems. I just can't tell you how 
much I appreciate all that you've done and your service.
    Secretary McHugh, I'm glad to see you. And in about a half 
hour, I'm going to go to the West Point Board of Visitors' 
meeting, and I know I'll see you there, where we serve 
together. And I'm so happy to still be on the board and able to 
help your alma mater, General Odierno.
    I'd like to ask both of you, really, but it's on the issue 
of drawing down the troops, and especially from Europe. And I 
know that you are planning to do some rotational deployments in 
Europe to save money. We're going to bring back the two 
brigades. And I just wonder if you are also looking at further 
reductions in Europe. Obviously, we have to have a presence 
there, when we have our hospitals there, but we know the 
training is limited. We know both the Government Accountability 
Office (GAO) and Congressional Budget Office (CBO) have said 
it's more cost effective to maintain forces in America rather 
than overseas.
    I'm, of course, interested, from the military construction 
standpoint and the operations on overseas bases, and have 
always felt like we were doing more than our fair share in 
NATO. I want to ask you where you are, either of you, or both, 
on conserving our dollars by having more troops based in 
America, making sure that we're not over building with our NATO 
military construction beyond what is our requirement. But 
sometimes we're getting into regional centers, where European 
countries want equality, and that's not our responsibility.
    So, can you walk me through that, and maybe something we 
haven't seen in the future that would help me understand that 
we are being efficient with our military construction and 
operations overseas, and favoring our U.S. bases, where we have 
the training capabilities and certainly the more efficient 
operations?

                            FORCE STRUCTURE

    General Odierno. I think, Senator, first is that I think as 
we look to the future, our strategy is going to be that we are 
going to rely more and more on rotational forces. We think 
that's important.
    Now, it does not mean we will completely reduce our 
overseas presence. It's got to be the right balance and mix, so 
we're going to constantly review what that right balance and 
mix is between rotational forces and forward station forces. We 
will continue to do that.
    We have been consistently coming down in Europe over the 
last 3 years. We're going to go down to 90 bases, 50 of those 
which are really Army sole bases. The other 40 are joint. 
There's some Army, Air Force, and some other places. From more 
than 300 bases that were there just 3 or 4 years ago. So, we 
are slowly coming down.
    The Secretary and I have a team over in Europe right now 
looking at the structure, the infrastructure, to continue to 
conduct assessments, as we inactivate the two brigades, as we 
bring down Fifth Corps headquarters, as they come out of 
Afghanistan, what is the exact infrastructure that would be 
needed. Are there refinements to that that we will have to 
make? And we will constantly assess this, as we move forward 
with our final posture.
    And I think so far, actually, we've gotten great 
cooperation from our partners on this. They realize this. They 
understand what we're trying to do, and the fact that we'll 
rotate forces to continue to train with some of our NATO 
forces, I think, is actually good for us and for them, because 
it will allow more units to have the experience of working with 
our NATO partners over time.
    So, I think we will continue to assess this. I think you'll 
see us reassess it again next year and the year after, and 
constantly look at this, as we try to get right our posture, as 
compared to what's in the United States and what's in Europe.
    Senator Hutchison. Let me ask you, on the V Corps 
headquarters, I believe you said that it's not going to return 
to Europe after the deployment in Afghanistan. Is that going to 
be eliminated, or will it be moved to an installation in the 
United States?
    General Odierno. The plan is to eliminate it, Senator.
    Senator Hutchison. Thank you. Thank you very much, both of 
you. I so appreciate working with you, and if there are any 
things that we need to be doing at West Point, please let me 
know. Thank you.
    Chairman Inouye. Thank you very much.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman. Mr. Secretary, 
General, you've been welcomed, but probably not by all of us 
yet. Thank you very much for your service.
    General, title 10, section 2464 of the U.S. Code requires 
the Defense Department to provide all the depots with a 
baseline core workload, the minimum amount of man-hours 
necessary to sustain a given depot's unique technical skills.
    For the Anniston Army Depot, that core workload 
requirement, I understand, is 3.2 million man-hours. Anniston 
was fortunate enough to exceed its core for nearly 9 years, but 
subsequent to the drawdown in Iraq hundreds of temporary 
workers have been let go. It's my understanding earlier this 
year the Army only projected 2.4 million man-hours of work for 
Anniston in 2013, a level far below its legally mandated core 
workload. Such an unprecedented drop-off could require Anniston 
to let go some of its permanent technical workforce, which we 
try to keep together, precisely those essential workers the 
core requirement was meant, as I understand it, to protect.
    What is the Army doing to make sure that this does not 
happen, and where are we there? Could you speak to that?

                                 DEPOTS

    General Odierno. I can, Sir.
    Senator Shelby. And how important is it?
    General Odierno. Thank you. Well, first, our depots are 
incredibly important for maintaining our capabilities. And what 
we've done is we've established core competencies in each one 
of our depots, in order to sustain that. So, for example, for 
Anniston, it's combat vehicle, assault bridging, artillery, 
small caliber weapons. And that will remain the core function 
of Anniston, as we go forward.
    In terms of reductions, what we're seeing is, as we 
continue to reduce the amount of reset and recap that we're 
doing, based on our work in Iraq and Afghanistan, we're 
starting to see the workload drop. But we've established these 
core capabilities in each one of our depots. We will continue 
to do that.
    Now, I will say, and the Secretary can add to this, is that 
we're going to continue to look at each one of our depots as we 
move forward to make sure that we sustain enough capability to 
grow, if necessary, but also to gain efficiencies. But Anniston 
has been such a key piece of everything we've done and will 
continue to remain one of our depots that have some core 
competencies that we need.
    Senator Shelby. Anniston and the other depots, without 
speaking of Anniston, they're very important for the readiness 
of the Army, is that correct?
    General Odierno. They are. They are very important.
    Senator Shelby. Mr. Secretary.
    Mr. McHugh. Senator, you have struck upon something that 
concerns us greatly, and not just because it says it in law, 
though, obviously, we're mindful of our title 10 and statutory 
requirements, but also, as you just noted, these depots are 
absolutely critical to the Army's ability to go out and do 
whatever missions they're assigned.
    As the Chief noted, our primary response to that are the 
establishment of centers of excellence, of which Anniston, of 
course, is one. We're working now with the Department of 
Defense to go through sector-by-sector, tier-by-tier (S2T2) 
analysis of our depots, of our core industrial base. And as we 
come down out of war, sustaining those minimum requirements 
that you cited, particularly for the high-end workers, is going 
to be a challenge, but we're looking at every possible avenue, 
including foreign military sales, in the case of some Bradleys 
for Anniston, and others, to try to yes, meet that statutory 
requirement, but more importantly, keep those facilities 
viable.
    Senator Shelby. Thank you.
    General, moving over to the area of the Army Ballistic 
Missile Defense, in May 2011, the Army and the Missile Defense 
Agency (MDA) signed a memorandum of understanding regarding a 
proposed transfer of Army ballistic missile defense assets 
(BMDA). This subcommittee felt that the proposal was not backed 
by sufficient analysis and the report of the fiscal year 2012 
defense appropriations bill contained language opposing any 
such transfer.
    Does the fiscal year 2013 budget move any Army programs or 
personnel to MDA or request funds to enact such transfers in 
the future, or where are we?

                            MISSILE DEFENSE

    General Odierno. I'll have to go take a look at that, 
Senator, and get back with you, and I don't know if the 
Secretary knows, but I believe that we are clearly still 
looking at that, at transferring some of the capabilities to 
MDA.
    Mr. McHugh. What I would note is we still believe the 
transfer makes sense, from the Army perspective. It is intended 
to simply provide through MDA, or provide the Army through MDA, 
greater buying power. Other service missile programs are 
similarly administered through that organization. And beyond 
the ground, the air-breathing threats would continue to be 
under our operational command. So, it's about a 65-percent, I 
believe, transfer, but most of it is in procurement and 
technological development.
    Senator Shelby. Will you furnish this to the subcommittee, 
since we were concerned about analysis of this memorandum of 
understanding?
    Mr. McHugh. I haven't read the fiscal year 2012 bill 
recently, but my understanding is we owe you an analysis and a 
report, and I can't imagine we wouldn't supply that.
    Senator Shelby. Okay.
    Secretary McHugh, in the area of Army aviation 
modernization, prior to its release, the fiscal year 2013 
budget, I understand, was described as delaying Army aviation 
modernization by 3 to 5 years. Could you provide us with some 
more detail, if you have any yet, of which programs are being 
delayed, and why, and would the delays impact primarily 
procurement, or research and development (R&D), or both?

                         AVIATION MODERNIZATION

    Mr. McHugh. I'd have to defer to the Chief on some of the 
specifics of that question. It's absolutely true. We had to 
slip some of the, particularly the procurement programs to the 
right. We feel it's an acceptable level of risk, given the 
status of most of our rotary wing fleet, as long as we have the 
sufficient reset money coming out of Afghanistan, as the Chief 
noted, for 2 to 3 years. But I think he can provide you some of 
the platform details.
    Senator Shelby. General.
    General Odierno. I can, Senator. What we've done is, we've 
delayed, we've not eliminated. But let me give you, for 
example, for the Apache, for example, we've gone down to the 
minimum requirements, which is 48 per year. It delays the 
program 3 to 5 years, to 2030.
    For example, out of this Program Objective Memorandum 
(POM), we've delayed the procurement of 23 new-build Apaches 
and 42 remanufactured Apaches. It will still be built, but it's 
been moved out of the POM.
    For the CH-47, we've reduced some performance upgrades, 
like the rotors. We've made that adjustment on the CH-47. We 
continue to do full-rate production under the current multiyear 
that ends this year. We're looking for another multiyear, from 
2013 to 2017, to complete the National Guard Reserve component 
modernization.
    In the UH-60, we're delaying modernization of all 
components by about 2 to 3 years. What I mean by components is 
Active, Reserve, and National Guard. And we'll delay 
procurement of 72 UH-60 Mikes to outside of the POM. But we 
will continue to modernize and update the UH-60s, as we move 
forward. So, as I've just said to you, it's more of a delay.
    Now, we have funded the upgrade of the Kiowa, but that's 
based on a decision, as we do the analysis of alternatives, as 
we look at the new potential armed aerial scout helicopter. 
That decision will be made later this year. And then based on 
that, we'll decide whether we go with the armed aerial scout, 
or do we continue to invest in improvements in the Kiowa 
Warrior. That will be determined sometime later. But we have 
funded the improvement program in this POM for the Kiowa 
Warrior at the tune of about $740 million. And we will continue 
to use Kiowas at least through fiscal year 2025.
    Senator Shelby. Quickly, the advanced hypersonic weapon, 
which we had a very successful test last year, this capacity, 
as I understand it, for a conventional prompt global strike has 
been sought for years by the military. Can you talk a little 
about that, and where we are in there? What will it mean for 
our combat commanders?

                       ADVANCED HYPERSONIC WEAPON

    General Odierno. Well, I don't think that's our program, 
but I would tell you that on the ground, the ability for us, 
it's about precision. And whenever we can increase our ability 
to provide precision munitions and capabilities, that makes a 
significant difference on the ground for us. And I think that's 
what we gain by this capability.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. 
Secretary McHugh, as you and I have discussed, Joint Base 
Lewis-McChord (JBLM), in my home State of Washington, is facing 
some very real questions on the way they have diagnosed post-
traumatic stress disorder (PTSD) and the invisible wounds of 
war. Today, unfortunately, we are seeing more information on 
the extent of those problems. This is actually a copy of 
today's ``Seattle Times'' and in it is an article that is based 
on the most recent review of the forensic psychiatry department 
at JBLM, which, as you know, is under investigation for taking 
the cost of mental healthcare into account in their decisions. 
And what this article shows is that since that unit was stood 
up in 2007, more than 40 percent of those servicemembers who 
walked in the door with the PTSD diagnosis had their diagnosis 
changed to something else, or overturned altogether.
    What it says is that more than 4 in 10 of our 
servicemembers, many who are already being treated for PTSD, 
and were due the benefits and care that came with that 
diagnosis, had it taken away by that unit, and then they were 
sent back into the force or into their community.
    Now, in light of all the tragedies that we have seen stem 
from the untreated invisible wounds of war today, I'm sure that 
you would agree that this is very concerning. And not only is 
it damaging for our soldiers, but it also really furthers the 
stigma for others, whether they're deciding to seek help or not 
today.
    So, in light of all the issues, you and I have had a chance 
to talk to this generally, but I wanted to ask you specifically 
today why was this highly controversial unit set up originally 
at JBLM, and who's decision was it to do that?
    Mr. McHugh. Do you mean the forensic department?
    Senator Murray. Correct.

                    BEHAVIORAL HEALTH RE-EVALUATION

    Mr. McHugh. Well, for every base where you demobilize 
soldiers, it is practice to have that capacity. The concern, as 
you noted, Senator, is that, at least statistically, and the 
numbers are changing every moment, they've changed since that 
newspaper went to print.
    Senator Murray. Do you have the most recent numbers?
    Mr. McHugh. I don't have them exactly.
    Senator Murray. But it is more than 40 percent?
    Mr. McHugh. The number of cases for re-evaluation is 
somewhat more than 300 now.
    Senator Murray. But it is more than 40 percent?
    Mr. McHugh. I haven't done the exact math, but I think 
that's a pretty accurate figure. So, the question for us is, 
why in this one unit were those kinds of re-evaluations and 
change in diagnosis achieved? It's not totally unheard of that 
a psychiatric or a mental health condition will change. So, I 
don't want to say all of those diagnoses and changes were 
inappropriate, but clearly, when you have those kinds of data, 
we want to make sure that everything is appropriate. And as you 
and I have discussed, to the Army Surgeon General's credit, 
General Patty Horoho, she has immediately stepped forward, has 
asked, and has had that particular unit step down, and has 
conducted a wholesale re-examination that has begun with 14 
soldiers, and will methodically go through all of them to make 
sure that the changes were not, in fact, inappropriate.
    Senator Murray. Do you know who made the original decision 
to step up that unit?
    Mr. McHugh. To actually form it?
    Senator Murray. Yes.
    Mr. McHugh. I couldn't tell you the officer's name.
    Senator Murray. And can you tell me, is this an isolated 
incident, or are there other Army medical centers that are 
changing the PTSD diagnosis at this rate?
    Mr. McHugh. That's what we have to be sure of. The Surgeon 
General has asked the Inspector General of the Army to go and 
examine all of similar facilities and locations. To this point, 
we don't see any evidence of this being systemic, but as, 
again, you and I have discussed, we want to make sure that 
where this was inappropriate, it was an isolated case, and if 
it were not, to make sure we address it as holistically as 
we're trying to address it at that.
    Senator Murray. Have you examined similar statistics for 
all the other installations?
    Mr. McHugh. All re-evaluations are being looked at and 
evaluated.
    Senator Murray. Okay. So that is being done. Can you 
provide us with that information?
    Mr. McHugh. We'll certainly keep you up-to-date on that. 
Yes.
    Senator Murray. All right. Well, as you know, the review by 
that forensic psychiatry at Madigan was a change from the 
standard disability evaluation process used across the 
military. The integrity of the disability evaluation system 
depends on each and every servicemember being subject to the 
same process. Across the Army, what will be done to improve the 
oversight of the disability evaluation system to make sure that 
the same process is being applied system-wide?
    Mr. McHugh. Well, as I said, the Inspector General, along 
with the Surgeon General, are re-examining the application of 
all diagnostic procedures. You noted correctly, we have a very 
standardized system. It's a system that is utilized similarly 
in the Department of Veteran Affairs (VA) evaluations, 
similarly in civilian evaluations, and we are restating to all 
of our providers that that is a diagnostic protocol that they 
will follow, and equally important, that fiscal considerations 
are not in any way a part of the evaluation. It's simply 
unacceptable.
    Senator Murray. And you're making that clear system-wide?
    Mr. McHugh. We're doing everything we can to make that 
clear system-wide. Yes, Senator.
    Senator Murray. Okay.
    General Odierno. Senator, if I could just add to that one 
point. For us it's about, we should be patient advocates. And 
that's the mindset we're going to work on changing, to make 
sure everybody understands that. We are patient advocates. We 
are trying to get the best for what is right for our soldiers.
    Senator Murray. General, I really appreciate that. And I 
have to say, I've been here for 10 years, since the beginning 
of this war, at many, many hearings, hearing that from the top, 
and I agree that that is what everyone is saying, but it's 
really disconcerting, after 10 years, to find now that that has 
not been the case. So, that's, you know, why I think it's 
really important that we really focus on this, not just at 
Madigan, and what happened there, but system-wide, to make 
clear that this is, you know, it isn't the cost of PTSD, or any 
mental health evaluation that is of concern to the Army or to 
the military at all, it is making sure that those men and women 
get the care that they receive. So, you know, it is very 
troubling to be here 10 years, after many, many hearings, and 
many, many questions, to find out this has been occurring.
    And really, one of the most troubling aspects of these 
recent events at Madigan is that servicemembers were diagnosed 
with PTSD and other mental health disorders during their 
military service. They received treatment for those conditions, 
but then when they entered the Medical Evaluation Board (MEB) 
process, they had that diagnosis changed. So, that is very 
troubling to every one of us that has been watching this for a 
very long time.
    And I did want to ask you what changes you are seeking, 
Army-wide, to make sure that behavioral healthcare diagnosis 
are more consistent between those who are providing care and 
those conducting the disability evaluations.
    Mr. McHugh. Well, as I said, Senator, the basic answer to 
that is the processes and the protocols of diagnosis are the 
same. You're always going to have individual practitioners who 
take a somewhat different view as to what they're observing in 
a particular patient, but that is what training is about, 
trying to eliminate to the greatest extent possible, those 
vagaries, but in terms of the standards of evaluation, whether 
it's an MEB or whether it is a postdeployment mental health 
evaluation, those diagnostic touch points are all the same and 
standardized. The Surgeon General and certainly the Inspector 
General, as he does his analysis across this system, are making 
that very, very clear, and we'll continue to press that as 
well.
    Senator Murray. Okay. Well, as I said, this is an extremely 
disconcerting situation. I want to know if it's system-wide, 
because these men and women, the stigma of mental healthcare is 
something that's very real. The challenges of PTSD and mental 
healthcare are real. And no one, no one should be denying any 
servicemember care purely because of a question of cost. That 
is something that the taxpayers of this country bear the burden 
of providing. We will provide it. But we want to make sure that 
the Army is not dismissing this in any way, shape, or form.
    So, we will continue to follow this and continue to stay in 
touch with you, as these different questions are answered, but 
I want to make sure that we are really looking not just at 
Madigan, obviously, that's clearly where the focus is right 
now, but system-wide, to make sure that we are evaluating all 
of these on the same system, and that there is no discretionary 
concern about cost or anything else, that we get these men and 
women the care that they have earned and they deserve, and this 
country expects them to have.
    Mr. McHugh. As I've said, Senator, we appreciate truly your 
leadership on that, and we are in full agreement of your 
perspective. Fiscal considerations should be nonexistent, and 
we're going to do everything we can to make sure they are.
    Senator Murray. Thank you very much. And thank you, Mr. 
Chairman.
    Senator Inouye. Thank you.
    Senator Coats.
    Senator Coats. Thank you, Mr. Chairman. I apologize if this 
question has already been asked. I'm Ranking Member on another 
appropriations subcommittee this morning, and so I had to 
divide my time here. But this is a question I asked the Air 
Force when they were here, and the Navy and Marines, when they 
were here. And that is the nearly half of $1 trillion reduction 
in spending on national security assets that you are working 
through now, which results in a considerable drawdown of Army 
personnel, and perhaps, procurement and other central areas, is 
tough enough, but the prospect of an additional nearly $1 
trillion under the Budget Control Act sequester, which has not 
yet been addressed for any kind of change, I just want, for a 
record, to get your assessment of what the impact of that would 
be.
    And I go back a little ways. I remember shortly after 
Desert Storm I, being with then Defense Secretary Cheney, 
saying, you know, if you go back through history, at the end of 
a major deployment or conflict, we've always drawn down too 
far, and going back up always puts us in a very difficult 
situation. And I couldn't help but write down the quote that 
General John F. Amos, Marine Corps Commandant, said. He said, 
``History has shown that it's impossible to predict where, 
when, and how our military forces will need to be called 
upon.''
    And so, I'd just like, for the record, to get your take on 
this particular budget-driven drawdown. And we all want 
efficiencies and effectiveness in saving funds, given our debt 
situation but also the potential impact of this sequester, if 
it's not adjusted.

                             SEQUESTRATION

    Mr. McHugh. Thank you, Senator. If I could, I'll start, and 
then turn it over to the Chief.
    With respect to this budget, these were tough decisions and 
tough numbers to make. We had to, I think, come down in a place 
that puts us on the edge, but, nevertheless, on balance, I 
think all of us feel, across both the combatant commands, as 
well as the Service Chiefs and Service Secretaries, that this 
is a reasonable fiscal plan, and most importantly, it does 
reflect the requirements under the new national military 
strategy.
    We're very concerned about any changes to that, because it 
is a delicate balance that the chair and I had a brief 
discussion about how our end-strength numbers are very finely 
tuned against our other budget lines, to make sure that we have 
the readiness and modernization, training, family programs that 
are necessary not to keep us on the path to going hollow, as 
you mentioned, that happened in other postconflict periods.
    As to sequestration, I think the Chief and I both agree it 
would be devastating. For the Army, I'll let the Chief talk 
about the actual numbers to our current end-strengths, but it 
will cost us another $134 billion, roughly. I can't count for 
you the number of acquisition programs that would be placed in 
a Nunn-McCurdy breach, simply because while the fiscal impact 
is hard enough, we have no opportunity under the budget law to 
manage it. It is simply an across-the-board cut against all 
appropriation lines, requiring us to buy one-half of a mine-
resistant, ambush-protected (MRAP) vehicle, if you will, or 
requiring us to ban all kinds of acquisition programs that I 
think would be chaotic, not just for the military but would be 
chaotic for our industrial partners, who obviously have 
stockholders and have employees, and would have to lay off, I 
don't venture an exact figure, but I suspect thousands, if not 
tens of thousands of employees. So, unlimited negative impact, 
should that happen.
    Senator Coats. Chief, do you want to add to that?
    General Odierno. Senator, if I could, I'll just say I want 
to make sure that people understand that this first $487 
billion cut is not an easy cut. And, in fact, I talk about the 
razor's edge, and the razor's edge is the fact that we have to 
balance end-strength with our modernization program and our 
readiness. It's a very, very careful balance. And my guess is 
we'll have to continue to refine and adjust this as we move 
forward.
    If we get another additional $500 billion cut, as the 
Secretary said, it, frankly, will change how the joint force 
looks. And so we're going to have to re-evaluate and take a 
look at what do we want our joint force to do. How do we want 
to accomplish our national security objectives?
    Specifically to the Army, it translates into approximately 
100,000 additional end-strength cut, a combination of Active, 
National Guard, and Reserves, but more importantly is it would 
require us to cut more steeply in 2013 and 2014, which in my 
mind puts at risk the force responding in Afghanistan, and to 
the current commitments we have, and puts at risk how many of 
our leaders that we would have to lose that have the experience 
and capabilities that we will need in the future.
    So, it's not only the size of the cut, it's the fact that 
they would require it to happen more quickly. They would 
require it to happen without any thought. It's an even cut 
across all management decision packages (MDEPs) within our 
budget. So, the risk is extremely high, in my estimation, 
extremely high. It would be devastating to us.
    Senator Coats. Thank you. Second question I have, 
assuming--do I have any time left, Mr. Chairman?
    Just help me get a little bit of understanding on where 
we're going with the vehicle fleet in the future. I know that 
the decision has been made to recapitalize high-mobility 
multipurpose wheeled vehicles (HMMWVs) to a significant extent, 
and I think there's money in the budget for that, but the 
decision between the modernized expanded capacity vehicle 
(MECV) and the joint light tactical vehicle (JLTV), can you 
just give me your thinking behind where you are now, and some 
of the thinking behind that. And I raise that partly because, 
and correct me if I'm wrong, the JLTV is a much lighter, more 
mobile vehicle than the MECV. Am I correct in that?

                        LIGHT TACTICAL VEHICLES

    General Odierno. The JLTV is really there to replace the 
HMMWV.
    Senator Coats. Yes.
    General Odierno. It's a HMMWV replacement.
    Senator Coats. But the MECV is being terminated, or at 
least in the budget, terminated.
    General Odierno. Right. Right.
    Senator Coats. Now, get to the rationale behind that.
    General Odierno. Well, I would say that we're looking at a 
combination of our whole wheel fleet, as you just kind of 
brought up. And what we've got, the JLTV, we will purchase 
about one-third of the amount of HMMWVs we have now. We're 
still going to depend a little bit on HMMWVs. Through our recap 
and reset program, we will continue to do that.
    We had to look at what we thought we needed across the 
force, as we move forward. You know, we've purchased a 
significant amount of MRAPs. We're trying to integrate what's 
the number of MRAPs we want to keep in the force, how many new 
JLTVs we need. And the reason the JLTVs is so important for us, 
it gives better protection than the HMMWVs, it's lighter, and 
it's network integrated. So in my mind, it's a significant 
upgrade to the HMMWV.
    So, I think it's a combination of all those things, a 
mixture of, you know, the MECV, the MRAPs, the HMMWVs, the 
JLTV, and we're trying to get the right mix. And with the 
budget constraints that we have, we believe the right mix was a 
combination of JLTV, HMMWVs and then using some of our MRAP 
capability to feel the need in that category of our truck 
fleet.
    We're also doing an analysis of our truck fleet, and we're 
probably going to reduce the number of trucks we have in the 
total fleet, as we reduce the force structure, and as we relook 
how we developed our requirements for the truck fleet. And 
we're taking a look at that as well, as we move forward. And 
we'll continue to refine and assess this, and provide you 
updates as we move forward with this during the next couple 
years.
    Senator Coats. My concern dates back to, again, early in 
the 1990s, when we thought the light tactical vehicle was the 
cat's meow, I mean, to get around in urban situations and so 
forth. This is before improvised explosive devices (IEDs) came, 
such a challenge for us, and so then there was a lot of 
clamoring that went on, and so forth. And you know all the 
history of that, and so forth. So, I guess my concern is, is 
that we end up back in a situation where we're under armored.
    General Odierno. Sure.
    Senator Coats. And our troops are more vulnerable. And 
that's really the heart of my question.
    General Odierno. Senator, it's a great question. And the 
challenge that we have, whether it be in our light vehicles, or 
even in our infantry fighting, any vehicles we develop now, 
it's this dynamic of mobility versus survivability. And what 
we're trying to do is, what I'd like to have is a system that 
enables us to adjust survivability, based on the environment, 
so we have a choice on how mobile we can be and how survival we 
can be.
    An example I always use is the Stryker vehicle. Our Stryker 
vehicle was built to provide us more mobility. What's happened 
is we've had to put so much weight back on the Stryker we've 
lost the mobility that we first wanted on the Stryker. And so, 
it's okay in an operation like Afghanistan or Iraq, because of 
the counter-insurgence, you know, we use it, but in other 
environments, we're going to have problems with it now, because 
it's so heavy, and its ability to get off-road is a problem.
    So, what we're looking for is the right balance, and that's 
what we're trying to get with the JLTV, that's what we're 
trying to get with the ground combat vehicle (GCV), is that 
right balance of mobility and survivability. And we're working 
very closely with all of our partners to try to achieve this.
    Senator Coats. And then just one last question. Do we have 
any problems with the industrial base, in terms of all this 
remixing of priorities?
    General Odierno. We watch it very carefully, and we have to 
make sure that we're able to sustain the industrial base, as we 
move forward. Certainly, we're very cognizant of that as we 
move forward.
    Senator Coats. That's a component of the decision in 
process.
    General Odierno. It is. It is.
    Mr. McHugh. As we discussed earlier, it's a big concern 
across all of our industrial base, both organic, but as well as 
our private industry partners. And we're working with the 
Department of Defense to try to ensure that we can do 
everything we can, whether it's for military sales, public-
private partnerships, in assessing and locating our personal 
buys, our individual service buys in a way that sustains that 
minimum rate to the greatest extent possible.
    Senator Coats. Good. Thank you. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. And gentlemen, 
thank you for your testimony, for your leadership. I listened 
with great interest to the exchange that you had with Senator 
Murray. As important as it is, when we talk about our military 
equipment and the infrastructure needs, I think we recognize 
that it always come back to the individual, to the human being, 
and we need to make sure that we are focusing equal attention 
on the need to reset that individual, reset the mind, the body, 
and ensure that there is no cost that is spared in doing so. 
So, I appreciate a great deal the attention that is being 
focused, not only, again, on the situation that Senator Murray 
has indicated at Madigan there, in Washington but, really, 
system-wide in better understanding that.
    General, I missed your visit when you came to Alaska in 
January. We appreciate that we don't get a lot of visitors 
coming to Alaska in January, and that was noted and greatly 
appreciated, particularly since you were coming from Hawaii. 
So, you got to really experience the contrast there. But I 
think it was important.
    We recognize that we're at some pretty historic levels, in 
terms of the U.S. Army Alaska forces, and the contribution that 
they are currently making in Afghanistan now. Well over 10 
percent of the Army forces deployed in Afghanistan are coming 
from U.S. Army Alaska, and I think that that is significant. 
So, I appreciate that you have gone there yourself, and would 
be curious in your impression, in terms of the quality of what 
we're doing in Alaska, in terms of the training.
    My more specific question, though, and what I would like 
you to address is, on that trip, you mentioned, in Hawaii, that 
the number of soldiers that are assigned to the Pacific would 
generally be about the same as it is today. Can you comment on 
the role of U.S. forces that are based in Alaska to achieve 
these military objectives in the Pacific? Is it fair to 
conclude that the number of soldiers that are assigned to U.S. 
Army Alaska will generally be the same as it is today?

                          U.S. ARMY IN ALASKA

    General Odierno. I think as we look at the plans, I think, 
as you know, U.S. Army Alaska is, in fact, part of the Pacific 
Command.
    Senator Murkowski. Right.
    General Odierno. And we're looking at, for the most part, 
it will be very close to what it is today. Now, we'll continue 
to look at that, but our plan is not to do much changes to the 
forces that are in the Pacific. So, I would say, in general 
terms, it will be pretty close to what it is today.
    Senator Murkowski. Appreciate that. I know that the folks 
in Alaska recognize, again, not only the strategic advantage 
that is gained there, but some of the training opportunities 
that we have. I'm assuming that your impression was favorable 
of what we are providing, in terms of the quality of troops 
we're seeing coming out of the North.
    General Odierno. Yes. First, the training facilities are 
incredible. What they're able to do and how they're able to 
prepare, no matter what mission they go on, it gives them a 
great advantage. And I would just also point out is that the 
families are taken care of very well up in Alaska. They love 
living there. It's a great base for us, because of its location 
and its ability to respond to the Pacific and other areas as 
well, if needed. So, it's a key component of our Army of the 
future.
    Mr. McHugh. May I just----
    Senator Murkowski. Yes. It's okay.
    Mr. McHugh. Somewhat of a prejudiced view on my part, I 
guess, but my 17 years in the House, I represented the Fort 
Drum region, which is close to the Canadian border, and I was 
very fond of saying, and it applies to Alaska as well, not 
everywhere we fight has palm trees. I mean it's nice to be able 
to train to sometimes less conducive climates than other places 
might provide. And that's important to weather acclimate our 
soldiers.
    Senator Murkowski. Yes. I recall flying over parts of 
Afghanistan and looking down at this very remote area, very 
mountainous, very tough country, and thinking, ``It looks just 
like home.'' So, it is a great place to train.
    I wanted to ask, also, a couple questions about the 
retirement of the C-23s, the Sherpas, here. Last fall, the 
subcommittee was briefed on the plan to divest the C-23s by 
fiscal year 2015. And in the briefing materials, it indicated 
that there would be a possibility that the Army would 
reconsider that divestment decision, if the Air Force makes the 
determination to retire the C-27.
    Well, now that the Air Force has proposed that retirement, 
I am hopeful and would certainly encourage the Army to revisit 
its decision to retire the C-23. Can you tell me whether or not 
the Army does intend to relook at that?

                           INTRA-THEATER LIFT

    General Odierno. I would just say we have not made any 
permanent decision. However, I would say we have some issues 
because the C-23, as you're aware, is an old aircraft.
    Senator Murkowski. Right.
    General Odierno. It's very expensive to sustain. It doesn't 
really quite meet the requirements that we have. I said 
earlier, we've identified a requirement that we need intra-
theater with, which is kind of the role the C-23 plays. And 
that requirement has not changed.
    Now, as we began to develop the C-27, the program was 
turned over to the Air Force. The Air Force has told us that 
they can provide C-130s to accomplish that mission. So, we are 
in agreement. We are working with them now to use the C-130, 
which would be direct support to Army units that would allow us 
to do that intra-theater lift. So, that's the solution we're 
headed--that's the road we're headed down right now, as that 
will be our solution.
    We'll continue to assess the C-23 program, as we move 
forward. But, frankly, especially with the current budget 
constraints, it's going to be very difficult for us, in my 
opinion, to sustain the C-23 program. But I'll turn it over to 
the Secretary.
    Mr. McHugh. Just the budgetary fiscal realities are simply 
to modernize these aircraft, which we would have to do, given 
their age. But modernization and longer-term sustain, that is 
between $800,000 and $1 million per aircraft. So, it really is 
a tough budgetary decision that we're going to make, what we'll 
have to make. But, as the Chief said, particularly as our 
intra-theater lift situation has evolved with the Air Force, 
you know, we're always willing to re-evaluate and change a 
decision where necessary. But that program has some real 
dollars attached to it.
    Senator Murkowski. Well, let me ask a follow-on. This is 
coming from a number of the Adjutant Generals, who think that 
extending the life of the C-23s is a bargain, at about $90 
million. They've asked me to inquire whether or not the 
National Guard's cargo lift needs can be filled at a lower-
price point, given that the C-27s will not be available to the 
Guard.
    General Odierno. Well, I think this is something that has 
to be decided at the Department of Defense level, as we look at 
this, and whether we believe the C-130s can fill that Guard 
need as well.
    Senator Murkowski. But that is being factored in.
    General Odierno. It needs to be. It absolutely has to be 
factored into this, as we look at this, because if we divest of 
the C-235, there is need in the Guard.
    Senator Murkowski. Right.
    General Odierno. There's no doubt about it. We recognize 
that, and I think that as we divest the C-23, that has to be 
picked up, and I think part of our discussion is that the C-
130s will have to help us do that, as a lift capability that 
would be needed for us to support National Guard missions, 
simply for the Adjustment Generals.
    Mr. McHugh. And I believe, according to the 2012 National 
Defense Authorization Act (NDAA), that should we divest the 
23s, we have to at least offer to the States' executives the 
opportunity to take those aircraft. So, that's part of the 
consideration as well.
    Senator Murkowski. Okay. Gentlemen, thank you. Mr. 
Chairman, thank you.
    Chairman Inouye. Thank you very much. I had a few questions 
that I wanted to ask before I left. Every member of this 
subcommittee has been concerned about the increase in suicide 
rates, in alcohol abuse rates, and divorce rates. In fact, the 
civilian suicide rate, if I recall, is 18 per 100,000. The Army 
is 24 per 100,000. I note that you have instituted an education 
program for suicide prevention. I know that it's too early to 
tell, but what do you think will be the future now?

                                SUICIDE

    Mr. McHugh. Of the many things that trouble us all, Mr. 
Chairman, the areas you just spoke about, and particularly 
suicide, are amongst the most troubling. I sign a letter of 
condolence to every survivor, and I usually do that on the 
weekends, and I'm just struck by how many letters are 
associated with a soldier taking his or her life. It's 
breathtakingly sad.
    And as you noted as well, we tried to take a multilevel 
approach. Our capstone program is the ask, care, and assist 
program, the Ask, Care, Escort (ACE) program, to try to bring 
suicide awareness to virtually every member of the United 
States Army, to tell them what they should be looking for in a 
troubled buddy, but also that it's their military 
responsibility to care about that, and to act and intervene, 
and assist that person to go get the help that's necessary.
    We have funded this to what we believe is the necessary 
requirement, but that's not enough. We're trading what we call 
gatekeepers in the Applied Science Intervention Skills Training 
(ASIST) program, the suicide ASIST program, so that they can 
have a higher level of expertise, people like chaplains, and 
others in positions of responsibility, where they come in 
contact with a lot of soldiers who are specially trained to 
recognize when a soldier is having challenges, and there, 
again, to provide them a path by which they can get some help.
    None of that will work, and it really goes back to Senator 
Murray's, I think, very appropriate comments about if a soldier 
is afraid to reach out, if they feel that their professional 
military career will be hurt, we're trying to do everything we 
can to destigmatize that, to ensure that a soldier in need will 
not feel inhibited in reaching out for behavioral healthcare.
    We've made some progress over the last 5 years, I believe, 
the data point is. We've had 100,000 more soldiers self-refer 
for behavioral health problems. But that's simply enough.
    Last, we, in the Army, have engaged with the National 
Institute of Mental Health in a 5-year longitudinal study that 
has made virtually every member of the United States Army part 
of a causal look at suicide, to try to understand where there 
may exist signs and commonalities, whether it's deployment, 
whether it's young soldiers, whatever it may be, so that we can 
be proactive, get out in front of it, not just writing letters 
of condolences but to recognize when a soldier is likely to 
have problems, and to step in. But, as the statistics show, I 
believe it was 134 suicides last year, the numbers continue to 
frustrate us.
    Chairman Inouye. General, do you have anything to add?
    General Odierno. Senator, if I could, I would just say, you 
know, I get notified of whenever a suicide happens, and 
unfortunately, it's alarming how many times I'm notified about 
a suicide. That's been one of the things that's been eye 
opening for me as I have become the Chief of Staff of the Army 
during the last 6 months.
    Suicides have leveled off, but that's not success, because 
it's still, as you mentioned, at the highest levels we've had 
in a very long time. So, what we're doing, it's a combination 
program, as you know, and I think we've talked about it before, 
you know, where it's health promotion. It's about trying to 
decrease risky behavior. And it's also about improving suicide 
prevention capability. So, it's a combination of all three of 
those, as we work through this program.
    It's about resiliency. It's about trying to understand 
resiliency. It's about having programs not only for our 
soldiers, but our family members as well, as they face some of 
these challenges. We are trying address this bigger than 
suicides.
    I don't like to use ``we were so busy'' as an excuse, and I 
will never use that as an excuse. We have to get our leaders 
back involved with more individual soldier activities, and 
counseling, and understanding what they're doing. We have to 
decrease the movement of our soldiers between commands. We have 
to reduce the amount of changes they have in their leadership 
within their units, because I think this all causes them not to 
sometimes report when they're having problems.
    When they've built a long-term relationship with a 
noncommissioned officer and he leaves, and/or commander, and so 
we're looking at all of those areas, as we can fix that, to 
provide more stability and predictability that I think will add 
to us helping to identify and solve some of these issues that 
we continue to have. It's going to be something that's going to 
continue to take time.
    I absolutely believe that our leaders are dedicated to 
doing this. We are dedicated to providing them the tools. The 
funding for this program is funded at the requested level. We 
have not taken any reduction in the funding of any of our 
programs that has to do with behavioral health, that has to do 
with suicide prevention, because it's an important program to 
us. And we will continue to emphasize this, and we will 
continue to work with outside agencies who can help us to 
identify the risky behaviors, and the indicators that we see of 
potential individuals who are risky to suicidal ideation or, 
you know, the commitment of suicide, and we'll continue to work 
that very hard, Senator.
    Chairman Inouye. I have one final question, and I'd like to 
submit the rest.
    This past January, the Secretary of Defense unveiled the 
new national security strategy for the Asia-Pacific area, and 
it was rather obvious that the Navy and Air Force did well. 
Forces were increased as well as equipment and resources. But, 
in the case of the Army, with the exception of Korea, it seemed 
to have come down. I find this rather strange. Do you have any 
thoughts on this?

                     ARMY ROLE FOR NATIONAL DEFENSE

    General Odierno. I would say, Senator, as we went through 
this process, first, we were involved in the process. I was 
involved in the process from the beginning. I was able to 
express my opinions. I was able to talk about the risk to the 
Army, and what we thought we needed for the Army of the future.
    But it came down to really one issue, and that is, do we 
believe we need the size of the Army that will cause us to 
continue to rotate large amount of forces for long periods of 
time to support long-term operations, whether it be a 
counterinsurgency operation, whether it be a stability 
operation. And the determination was that we can take some risk 
in the fact that we will not have to conduct long-term 
stability operations, and that we can mitigate that risk 
through reversibility and the use of our Reserve component, if 
it does occur, which would buy us time to rebuild the army.
    And I think as we were faced with the budget reductions, I 
think we agreed that a 490,000-man Active component Army that 
is equipped properly, that has the money to sustain its 
readiness, although has risk to it, will enable us to 
accomplish the missions of the new strategy, and that we will 
be able to support the strategy in the Asia-Pacific but also to 
continue to provide support in the Middle East as well.
    So, although there's some risk, as we've talked about 
already, we believe that this is not a competition between the 
Army, the Navy, and the Air Force, it's about having the right 
joint force to accomplish the mission. And I believe that we 
now have the right joint force to move forward.
    My concerns are that in the future, if we continue to look 
at reducing the Army more, then we have some real issues, and 
that's when my concern will grow significantly, Senator.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. My one concern is the question marks. We 
are reducing our forces, but yet there's a big question mark 
over Iran and a big question mark over Syria. There's also a 
question mark over Egypt. Are the risks too great? I don't 
know.
    I'd like to thank you, Mr. Secretary and General, for your 
service to our Nation. And this subcommittee looks forward to 
working with you.
    [The following questions were not asked at the hearing but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted to Secretary John M. McHugh
           Questions Submitted by Senator Barbara A. Mikulski

              MOVEMENT TRACKING SYSTEM/BLUE FORCE TRACKING

    Question. The Army has two mobile tracking systems: Movement 
Tracking System (MTS) and Blue Force Tracking (BFT-1) which utilizes 
satellite communications to track transportation and armored vehicles. 
More than 120,000 BFT and MTS systems have been fielded to date, of 
which approximately 11,000 unique users are active in Afghanistan over 
any given month. These systems generate nearly the entire common 
operating picture of mobile ground force situational awareness in 
Afghanistan and are often the only means of communication for soldiers 
whose missions take them out of range of terrestrial means of 
communication. What is the status of developing the follow on BFT-2 and 
BFT-3 X band?
    Answer. The development of the BFT-2 satellite transceiver is 
complete. The final production acceptance testing for ground systems 
has been completed and the Army is currently receiving deliveries. 
Aviation testing is approximately 75 percent complete. The Army is 
fielding the BFT-2 network to units in Korea and will begin fielding to 
the United States Army Forces Command units in May. The United States 
Government owns and operates the network equipment, and the software is 
in place to support required test events and fielding operations. There 
are currently no development efforts funded for a BFT-3 capability.
    Question. Is the BFT-2 development over budget and behind schedule? 
What are the projected costs associated with continuing to develop BFT-
2?
    Answer. The BFT-2 development was completed in 2010. The current 
BFT-2 production contract is a Firm Fixed Price contract and production 
remains within the planned budget. There are no additional costs 
associated with the development of the BFT-2 capability.
    Question. What are the potential cost savings if the Army bypassed 
BFT-2 development and focused on BFT-3 X band?
    Answer. The BFT-2 development is complete; therefore, there would 
be no cost savings associated with bypassing the BFT-2 development.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

              HIGH-MOBILITY MULTIPURPOSE WHEELED VEHICLES

    Question. Documentation for a May 2011 reprogramming action states 
that ``the Army has procured sufficient High-Mobility Multipurpose 
Wheeled Vehicles (HMMWVs) to meet the Army's Acquisition Objective 
(AAO).'' While this reprogramming rescinded $182,000,000 from this 
account, according to the document there is still a balance of 
$422,356,000. How much of the funding in the Army HMMWV procurement 
account is currently unobligated?
    Answer. The amount of unobligated funds in HMMWV fiscal year 2010 
new production procurement account is $19.548 million. These funds have 
been committed and will be obligated by June 2012.
    Question. Funding has been appropriated in prior years for both 
survivability and mobility enhancements for the existing HMMWV fleet 
and for the Army's HMMWV Competitive Recapitalization Program. What are 
the current unobligated balances in these two accounts?
    Answer. The Fiscal Year 2012 Project/PE was authorized $70 million. 
The Army has not obligated any of these funds due to an uncertain 
future for the modernized expanded capacity vehicle (MECV) effort. 
Decisions by Army leadership within the last month have determined that 
$20 million will be used for the survivability improvements as 
requested and appropriated. We will then be asking that the Congress 
allow us to use the remainder for automotive improvements to our 
existing fleet and higher-priority requirements. This funding is 
projected to be obligated in 4th quarter 2012 and 1st quarter 2013.
    Question. The President's budget for fiscal year 2013 recommends 
terminating the Army's HMMWV Competitive Recapitalization Program. How 
does the Army propose to spend the unobligated balance in this account?
    Answer. The Army will no longer pursue the HMMWV Competitive 
Recapitalization Program (also known as the MECV). The Army is 
currently looking at the options available for the execution of the 
funds.

                   TACTICAL WHEELED VEHICLE STRATEGY

    Question. The Army 2010 Tactical Wheeled Vehicle Strategy outlines 
a plan to ``replace all M939-series trucks with FMTV FoVs no later than 
FY22.'' The strategy states that, ``Divesting these vehicles will 
ensure dramatically lower sustainment costs for the Army as many are 
well past their EUL.''
    Will the cuts in family of medium tactical vehicle (FMTV) 
purchasing in fiscal year 2013 and proposed termination of FMTV 
procurement after fiscal year 2014 delay the divestiture of the M939-
series trucks?
    Answer. The Army is currently reviewing all of its fleet 
requirements. In the aggregate, the Army's current plans for FMTV 
procurements through fiscal year 2014 and fleet reductions should 
divest the M939-series by fiscal year 2016, with the possible exception 
of some specialty variants, provided there are no additional cuts in 
funding.
    Question. Compared to the original plan outlined in the Army 2010 
Tactical Wheeled Vehicle Strategy, how much higher will the Army's 
maintenance costs be over the 10-year budget window due to increased 
use of the M939-series trucks?
    Answer. The Army does not anticipate an increase in use of the 
M900-series vehicles over the 10-year budget window and, as a result, 
these vehicles will not incur higher maintenance costs. The Army is 
currently revising its medium tactical wheeled vehicle acquisition 
objective and expects to meet the reduced acquisition objective at the 
end of the current family of medium tactical vehicles production 
contract in fiscal year 2014. This will enable the Army to divest the 
remaining M900-series medium tactical vehicles without an increase in 
their use.
                                 ______
                                 
               Question Submitted by Senator Patty Murray

                       ELECTRONIC MEDICAL RECORDS

    Question. I want to thank you yesterday for sitting down and 
discussing the issues of Department of Veterans Affairs (VA)/Department 
of Defense (DOD) collaboration.
    As you said one of the major issues is the inability for the two 
agencies to share electronic medical records.
    To this end, you said you were going to start a pilot that may get 
off the ground in 3 years to try and make progress.
    Mr. Secretary, the Congress has been pushing you to move forward 
for years on this effort, we passed legislation that you voted for as a 
House member many years ago, and yet after 10 years of war you are 
still talking about a pilot program and an inability to get this effort 
off the ground.
    What can you tell this subcommittee, and millions of soldiers who 
need this effort taken seriously, and me about how you will make shared 
medical records a reality so we are not sitting here 3 years from now 
and hear from you about some pilot program you are intending to create 
in the future?
    Answer. Since 2006, DOD/VA shares data through the Bidirectional 
Health Information Exchange through which DOD and VA clinicians access 
each other's health data via a secure real-time interface. The 
Bidirectional Health Information Exchange shares data between DOD/VA 
only, whereas another initiative, the Virtual Lifetime Electronic 
Record (VLER) shares information with private partners through the 
Nationwide Health Information Exchange. The VLER is currently a pilot 
program with DOD participating at four sites including, San Diego, 
California; Tidewater areas of Virginia; Spokane, Washington; and Puget 
Sound, Washington. Through the VLER, providers have the ability to 
query the Nationwide Health Information Exchange to view information 
other healthcare organizations made available on their patient. A 
decision regarding the deployability of the VLER across the enterprise 
should be made in the summer of 2012.
    The Interagency Program Office (IPO) has been re-chartered as the 
single point of accountability for the integrated Electronic Health 
Record (iEHR). All three services are involved at various levels of the 
governance process to ensure the project stays on schedule and within 
budget. The IPO reports to the Health Executive Council with 
representation from Health Affairs and the VA. DOD and VA are committed 
to the iEHR effort. The iEHR will enable DOD and VA to align resources 
and investments with business needs and programs. The iEHR will 
leverage open source solution development to foster innovation and 
expedite delivery of a viable and effective solution.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

       POST-TRAUMATIC STRESS DISORDER AND TRAUMATIC BRAIN INJURY

    Question. Are there any further legislative steps that the Congress 
could take to improve the screening and delivery of care to military 
personnel with post-traumatic stress disorder (PTSD) and traumatic 
brain injury (TBI)?
    Answer. Continued congressional support of the Army's TBI and PTSD 
clinical and research efforts will ensure improved screening and 
delivery of care.

      REPLACEMENT OF IRELAND ARMY COMMUNITY HOSPITAL AT FORT KNOX

    Question. In response to a question for the record, I submitted in 
2011, the Army stated that ``The Army intends to replace Ireland Army 
Community Hospital (IACH). The current Defense Health Program Future 
Year Defense Program includes a phased funded replacement project for 
IACH beginning in fiscal year 2013.'' However, the President's fiscal 
year 2013 budget did not include a funding request for the replacement 
of IACH at Fort Knox. When does the Army intend to build a replacement 
and when will the Army plan on requesting funding for the project?
    Answer. The Fort Knox Hospital Replacement Project is 35 percent 
designed. This project is being programmed in two phases: Phase 1 
Inpatient at a cost of $308.5 million and Phase 2 Outpatient at a cost 
of $257.5 million. The U.S. Army MEDCOM is reviewing the project 
documentation and updating the Healthcare Requirements Analysis in 
preparation for resubmission to the fiscal year 2014 budget estimate 
submission for phase 1. The Department of Defense position on the Fort 
Knox Hospital Replacement is to revalidate the project scope in light 
of ongoing military health systemwide inpatient analysis by Office of 
the Assistant Secretary of Defense for Health Affairs (OASD (HA)). The 
Army Medical Department must scope this facility based on efficient and 
effective healthcare operations, but must also incorporate current and 
future installation and military treatment facilities missions.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchinson

          INACTIVATION OF THE 172ND HEAVY BRIGADE COMBAT TEAM

    Question. Secretary McHugh, while I am encouraged to see that the 
Army is eliminating two permanently based brigade combat teams from 
Germany, I do have a question as to the timing for this proposed move. 
As you are aware, the Army will inactivate the 170th Heavy Brigade 
Combat Team (BCT) in fiscal year 2013 but is waiting until fiscal year 
2014 to inactivate the 172nd Heavy Brigade Combat Team. Why is the Army 
waiting until fiscal year 2014 to cut the second brigade and how much 
will it cost the United States taxpayers to sustain this brigade in 
Germany an additional year?
    Answer. The 172nd Brigade deployed in support of Operation Enduring 
Freedom and was not available to inactivate in fiscal year 2013. When 
the unit returns from combat, it will conduct 6 months of soldier and 
family re-integration and begin incremental battalion level draw-downs 
and ultimately leave the force in early fiscal year 2014. Therefore, 
savings cannot be significantly accelerated and no additional resources 
can be saved.

          MULTIYEAR CONTRACT FOR THE CH-47 CHINOOK HELICOPTER

    Question. Secretary McHugh, as part of this year's budget, you have 
submitted a request for approval to enter into a second multiyear 
contract for the CH-47 Chinook helicopter. This multiyear contract 
would last for 5 years and produce 155 aircraft, 12 of which would be 
for the Texas National Guard. You've already had experience with a 5-
year multiyear contract for Chinooks; the first one expires this year. 
Given this experience, what have you seen as the biggest benefits for 
both the Army and the taxpayer that led you to request authority for a 
second multiyear contract?
    Answer. The biggest benefit to the taxpayer is the savings; $449 
million on the base contract for 181 CH-47F aircraft. The current 
Chinook multiyear contract is a firm fixed-price contract for fiscal 
year 2008-2012. The contract has executed on cost and delivered on 
schedule. In addition to the base contract savings, the program office 
procured 34 option aircraft for an additional $86 million in savings. 
The second requested multiyear contract is projected to yield 10-
percent savings or $373 million.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                   MEDIUM EXPANDED CAPABILITY VEHICLE

    Question. Last year, this subcommittee added $20 million to fund 
the design competition for the medium expanded capability vehicle 
(MECV). The President's budget for this year, however, seeks to cancel 
this program, even though the air assault requirements for 5,700 
survivable trucks capable of being transported by a Chinook helicopter 
remain unchanged. I am uncomfortable with the decision to cancel the 
MECV design competition because it will increase the risk to our air 
assault soldiers. The tactical wheeled vehicle budget was reduced by 57 
percent compared to last year's budget request, and the decision to 
cancel the MECV appears to be the result of insufficient procurement 
funding in the near-term budget window to move forward with both the 
MECV and joint light tactical vehicle (JLTV) programs. Was the decision 
to cancel the MECV program based solely on the fiscal constraints the 
Army faced?
    Answer. The decision not to begin the MECV was due to Defense-wide 
funding constraints; not just fiscal constraints faced by the Army. The 
Army and Marine Corps' made the decision to proceed with JLTV to fill 
the capability gaps for light tactical vehicles. MECV was deemed a 
lower-priority program.
    Question. The funding necessary to conduct the MECV design 
competition has already been authorized and appropriated for this 
purpose in last year's National Defense Authorization Act (NDAA) and 
Department of Defense (DOD) Appropriations Act. Proceeding with the 
MECV design competition would provide you with the necessary 
performance and life-cycle cost data to make an informed decision 
regarding the most survivable and cost-effective way to fulfill the 
capability gap to lift a survivable tactical wheeled vehicle for our 
air assault and airborne units at high, hot conditions. Does the air 
assault requirement for a survivable tactical wheeled vehicle that can 
be lifted by a CH-47 Chinook in high-altitude and/or high-temperature 
conditions still exist?
    Answer. Yes, the requirement for the air assault mission to lift a 
survivable light tactical vehicle with the CH-47 Chinook in high/hot 
conditions (4,000 feet/95 F) still exists. The original requirement 
was addressed in the high-mobility multipurpose wheeled vehicle (HMMWV) 
Operational Requirements Document in September 2004.

            SUICIDE--HIRING OF BEHAVIORAL HEALTH SPECIALISTS

    Question. Many of us on this panel have a great deal of respect for 
the former Vice Chief of Staff, General Pete Chiarelli, who authored 
the Army's Gold Book in response to concerns about suicides and the 
health of the force. Before he retired, he came over to the Hill to 
discuss the Army's efforts to reduce the incidence of suicide in the 
force and the ongoing efforts to treat the underlying problems that 
lead far too many of our Nations' best men and women to contemplate or 
perform suicide. General Chiarelli identified access to behavioral 
healthcare as one way to reduce the rate of suicide. There have been 
several efforts by the Congress to expand access to providers, 
including a provision in last year's NDAA to utilize telehealth 
initiatives, and I want to applaud the Army for submitting a 
legislative proposal this year to expand the number and types of 
providers that may conduct evaluations during preseparation screening. 
I fully intend on supporting this proposal, but the problem will not be 
solved by this measure alone.
    Secretary McHugh, are there any other requests you would make to 
allow for rapid hiring of additional behavioral health specialists, 
even if on a temporary basis, to address both the rate of suicides and 
alleviate pressure on your existing behavioral health force?
    Answer. The permanent extension of 10 U.S.C. 1599c, which provides 
for expedited hiring authority for certain healthcare professionals, 
including behavioral health specialists, would provide the long-term 
critical ability to hire behavior healthcare providers more rapidly.

                   MEDICAL AND DISABILITY EVALUATIONS

    Question. During the past year the length of time that wounded 
warriors and recently discharged veterans have been waiting for 
disability evaluations has continued to suffer. For Active-Duty members 
the average evaluation completion time increased by 88 days from March 
2010 to January 2012. It takes more than a year right now.
    In addition, medical evaluation boards still take twice as long as 
the 35-day target. Several senior officers, including the former Vice 
Chief, have identified the Integrated Disability Evaluation System and 
the dual adjudication process as impediments to rapid evaluations and 
outcomes for our veterans.
    What administrative actions are being taken or what legislative 
proposals could be implemented to improve the time it takes to conduct 
the medical and disability evaluations for our wounded soldiers?
    Answer. The Army is aggressively working to improve performance of 
the Disability Evaluation System (DES). We are currently implementing a 
number of initiatives designed to improve the performance, including:
  --adding more than 1,100 in staffing;
  --publishing guidance to standardize the process across the Army;
  --improving our training; and
  --establishing procedures that will enhance the sharing of 
        information with the Department of Veterans Affairs (VA).
    The Army is looking at several different options to improve the 
DES--one of which would be a process in which DOD determines a disabled 
servicemember's fitness for duty, and if found unfit, provide a 
lifetime annuity based on the member's rank and years of service. VA 
would then establish compensation for service-connected injuries, 
disease, or wounds. We believe this type of system would achieve an 
average disability process outcome in less than 90 days:
  --improved readiness;
  --reduced complexity;
  --decreased impact on limited medical resources; and
  --be less adversarial.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats

                    OVERSEAS CONTINGENCY OPERATIONS

    Question. Regarding the funding provided by this subcommittee for 
Overseas Contingency Operations, does the Army have the flexibility it 
needs to transfer funds between accounts to ensure funding is used 
wisely and does not expire?
    Answer. Operation and Maintenance, Army (OMA) overseas contingency 
operations (OCO) funding for operational requirements was previously 
distributed in subactivity group (SAG) 135. To comply with House Report 
112-331, the Conference Report that accompanied Public Law 112-74, 
Consolidated Appropriations Act, 2012, specifically pages 759-761, Army 
distributed OCO funding into SAGs previously used exclusively for base 
resources (114, 115, 116, 121, 122, and 131). Issuing OCO funding in 
base SAGs, some with reprogramming restrictions (for example, SAG 131), 
limits Army's execution in those SAGs to requirements consistent with 
the SAG description. To realign resources across SAGs to meet emerging 
requirements requires a reprogramming action. These reprogramming 
actions are time consuming and are sometimes limited to relatively low 
thresholds (for example no more than $15 million may be moved out of 
SAG 131 without congressional prior approval). Army executed resources 
responsibly and with greater flexibility when there were fewer OCO 
SAGs. The drawdown of deployed forces may also further complicate 
administering Army OCO accounts as evolving priorities and requirements 
may shift faster than fiscal rules accommodate.
    Question. Since its inception, has any funding provided for the 
Afghanistan Security Forces Fund (ASFF) expired?
    Answer. Yes, we have had ASFF funds expire. Since fiscal year 2005, 
we have had an obligation rate greater than 99.5 percent per year 
resulting in a cumulative total of $46 million unobligated over 6 
years, of $27.9 billion available.
    Question. What mechanisms does the Army utilize to ensure funding 
is not allowed to expire at the end of each fiscal year?
    Answer. The Army has several mechanisms in place to ensure funding 
is not allowed to expire each fiscal year. Senior leaders review Army 
obligations on a weekly basis. Our operations and maintenance 
appropriation spend plan is reviewed monthly to ensure we are in 
accordance with the mandate of no more than 20 percent of the 
appropriation shall be obligated during the last 2 months of the fiscal 
year; thus putting the Army on a glide path for 100-percent execution 
of its appropriation. In addition, each year the Army conducts Mid Year 
Review (MYR)--a senior leader comprehensive look at command execution 
through end-of-month March. Resources are realigned to optimize their 
use for Army requirements. The MYR is also provided to the Office of 
the Secretary of Defense and any resources excess to Army needs would 
be used for Department of Defense requirements.
                                 ______
                                 
           Questions Submitted to General Raymond T. Odierno
                Questions Submitted by Senator Herb Kohl

          POST-DEPLOYMENT/MOBILIZATION RESPITE ABSENCE PROGRAM

    Question. Due to Government errors at demobilization sites, many 
soldiers did not receive the full amount of administrative leave that 
they were allowed under the Post-Deployment/Mobilization Respite 
Absence Program (PDMRA). How many soldiers have been credited with 
extra days of PDMRA administrative leave by the Army Board for 
Correction of Military Records (ABCMR) to correct this mistake?
    Answer. The ABCMR granted 466 soldiers authority to use PDMRA days 
they had earned but were not afforded the opportunity to use. Their 
records were corrected to show that they are authorized to use these 
days of PDMRA upon the next qualifying deployment/mobilization. 
Authority to use these PDMRA days will expire upon the soldier's 
transfer from an authorized Reserve component status.
    Question. For those soldiers credited with extra days of PDMRA 
administrative leave by the ABCMR, what is the average number of 
additional days each soldier has received through the ABCMR process?
    Answer. The average PDMRA days granted by ABCMR was 26 days.
    Question. Of the soldiers who have been credited with extra days of 
PDMRA leave by the ABCMR, how many have already used the leave, are 
currently on a deployment which will make them eligible to use the 
leave, or are scheduled for such a deployment in the future?
    Answer. The Army is unable to provide specific numbers to this 
question since the Reserve components, Army National Guard (ARNG) and 
the Office of the Chief of Army Reserve (OCAR), were never required to 
track PDMRA to this level of detail. However, ABCMR reviewed 
applications from 604 soldiers who sought monetary reimbursement or 
credit for PDMRA days which were earned but not used. Future deployment 
numbers are unknown as this is a function of demand. Current Reserve 
component soldiers on mobilization orders are approximately 46,650.
    Question. Some soldiers who have been credited with extra days of 
PDMRA leave by the ABCMR will never be eligible to use this leave since 
they will not deploy again. How do you propose that the Government's 
mistakes be remedied in the cases of these soldiers?
    Answer. The Army no longer has authority under section 604 of 
Public Law 111-84 (the Fiscal Year 2010 National Defense Authorization 
Act) to provide monetary compensation to soldiers or former soldiers 
for PDMRA leave. As such, we have no remedy for former soldiers. For 
current soldiers, the only available remedy to address the extra PDMRA 
leave they may have been credited with is for those soldiers to 
participate in subsequent deployments.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

       PREPARING SOLDIERS FOR THE TRANSITION OUT OF THE MILITARY

    Question. General Odierno, I recently attended a number of 
veterans' roundtables back in my home State of Washington. Time and 
time again, I hear similar stories of struggle. Veterans do not put 
their military service on their resumes because they feel that 
employers will find them less desirable. Also, employers are often 
unable to understand all of the skills veterans bring to a workplace.
    I am concerned as the Army begins to downsize by 80,000 soldiers 
over the next 5 years, how these soldiers will transition in a 
difficult economy and how that will impact the Army's bottom line with 
the increasing tab for unemployment compensation.
    The Army Career and Alumni Program (ACAP) provides critical 
services for our soldiers transitioning to a postmilitary career. I am 
concerned that with the reduction in temporary end-strength that the 
Army will not have enough counselors on hand to assist--especially as 
ACAP changes and requires more intensive preparation beginning 15 to 18 
months prior to separation.
    Have you adequately budgeted to reflect an increase in ACAP 
counselors to address this surge in separations?
    Answer. The Army is currently conducting a detailed analysis of the 
additional counselors and staff that will be required to address the 
additional throughput of soldiers. Resources are being identified to 
reallocate to our transition program to ensure all transition 
requirements by all soldiers are met.
    ACAP delivers a world-class transition program for America's Army 
that ensures all eligible transitioners have the knowledge, skills, and 
self-confidence necessary to be competitive and successful in the 
global workforce. ACAP helps transitioning soldiers make informed 
career decisions through benefits counseling and employment assistance. 
ACAP is responsible for delivering both transition assistance and 
employment assistance services.
    Some examples of programs available through ACAP are:
  --Transition Assistance Program (TAP) Employment Workshops;
  --Employment Assistance to include resume writing and ``Dress for 
        Success'';
  --Health Benefits Transition Brief;
  --Survivor Benefits Plan Brief; and
  --Veterans Affairs Disability Brief.
    The Army is also utilizing the Hero 2 Hired (H2H) as its interim 
employment application/tool (www.H2H.jobs) to provide one primary 
location where soldiers of all components, veterans, and family members 
can connect with private industry employment opportunities. This 
application is Web-based and able to translate military occupational 
skills (MOS), provide career path exploration, upload resumes, allow 
customized job searches, enable employers to also search for veterans, 
and provide performance metrics. H2H will eventually be included on 
eBenefits, the single portal for transition benefits selected by the 
Department of Defense (DOD)/Department of Veterans Affairs (VA) 
Veterans Employment Initiative Task Force (www.eBenefits.va.gov).
    Question. I understand ACAP does a lot to prepare soldiers for the 
transition out of the military through career and transition 
counseling. But the military spends hundreds of millions of dollars on 
unemployment insurance for those who were unable to find civilian 
employment. As you know, my Veterans Opportunity to Work (VOW) to Hire 
Heroes legislation makes a range of improvements designed to help get 
servicemembers and veterans into good civilian jobs. Part of that 
legislation dealt with helping servicemembers transition skills that 
have a direct correlation to civilian licensure or certification. What 
are you doing so far to implement this legislation?
    Answer. Army Continuing Education System (ACES) has a program 
currently in place to support in-service and transitioning soldiers in 
obtaining certifications and licensure. The Credentialing Opportunities 
On-Line (COOL) program (www.cool.army.mil) provides soldiers with 
information on civilian licensures and certifications relevant to their 
Army Military Occupational Specialties (MOS). The COOL program provides 
each solider an MOS crosswalk to civilian skills. Also, Certification 
and Licensure for each MOS is listed in COOL along with the estimated 
availability of a first-term solider to obtain a credential and the 
resources (GI bill, Army e-Learning, ACE credit) to obtain each 
certification.
    The Army Transition Implementation Plan outlines how the Army will 
operatively incorporate the transition requirements mandated by the VOW 
to Hire Heroes Act of 2011, and the Presidential Veterans Employment 
Initiative Task Force (VEI TF) recommendations. The Army Transition 
Implementation Plan was developed at the Army Transition Plan Working 
Group comprised of representatives from the U.S. Army Deputy Chief of 
Staff, G1, U.S. Army Installation Management Command (IMCOM), U.S. Army 
Human Resources Command (HRC), U.S. Army Reserves (USAR), and the Army 
National Guard (ARNG). The working group focused on integrating the 
requirements established by the VOW Act and VEI TF, in coordination 
with the Veterans Administration (VA), Department of Labor (DOL), and 
Small Business Administration (SBA). The working group will evolve the 
transition landscape from that of an end of service program, to one 
that provides a blended transition-training and services delivery 
model, integrating transition education as part of a soldier's military 
life-cycle. As transition is introduced into the military lifecycle, 
soldiers, leaders, and transition service providers, will maintain 
transition awareness that best prepares soldiers for life after the 
Army.
    The Army Transition Implementation Plan was approved in April 2012. 
Concurrently, Army transition service providers and interagency 
partners, are in development of revised transition curricula, for 
piloting in July 2012. The Army will pilot the VOW Act and VEI TF 
requirements at select Active component installations and Reserve 
Component locations. The Army has identified an official employment 
portal, https://H2H.JOBS, ``Hero to Hired,'' where soldiers can search 
for jobs and employers can post job openings.
    Army-wide implementation for VOW Act and VEI TF requirements will 
take place no later than November 21, 2012. The Army Transition 
Implementation plan accomplishes:
      Veterans Opportunity to Work Act Requirements.--Pre-separation 
        Counseling, VA Benefits Briefing, DOL Employment Workshop--
        implementation for all Army components no later than November 
        21, 2012.
      Veterans Employment Initiative Task Force Requirements for a Core 
        Curriculum.--Military Occupational Specialties (MOS) Crosswalk, 
        VA Applications, Financial Planning, Individual Transition Plan 
        (ITP) Preparation--implementation no later than November 21, 
        2012.
      Veterans Employment Initiative Task Force Requirements for a 
        ``Goals, Plans, Success'' Curriculum.--Goals, Plans, Success 
        (GPS) provides the opportunity for soldiers to attend 
        additional training sessions on continuing higher education, 
        pursuing technical education/certification, or venturing 
        towards entrepreneurship. GPS curriculum is divided into an 
        Education Track, Technical Training Track, and Entrepreneurship 
        Track, with implementation in October 2013.
      Veterans Employment Initiative Task Force Requirements for an End 
        of Career, Transition CAPSTONE Event, To Mitigate Any Risks for 
        Possible Negative Transition Outcomes After Separation and 
        Connect Jobs to Soldiers (H2H.JOBS).--CAPSTONE will identify 
        soldiers confidence and preparedness for transition, with the 
        ability to ``re-train'' as appropriate. CAPSTONE implementation 
        will be October 2013.
      Military Life Cycle for Transition.--Military Life Cycle for 
        Transition will parallel transition readiness with military 
        career progression, as transition education will be integrated 
        in a soldiers military education throughout their career. 
        Military Life Cycle (MLC) will be implemented October 2014.
      Pre-Apprenticeship.--We have begun initial staff analysis and 
        planning to develop and implement a pre-apprenticeship program 
        authorized by subsection 225 of your HHA. This training program 
        is intended for transitioning Active-Duty soldiers, offered 
        through an industry partner and seeks to capitalize on an 
        opportunity to address local labor needs with soldiers by 
        reducing training cost to employers. It allows transitioning 
        servicemembers, who have been vetted through appropriate 
        channels, and meet prerequisites, to participate in a 
        preapprenticeship program that provides credit toward a program 
        registered under the National Apprenticeship Act. Wounded 
        Warriors--Education and Employment Initiative (E2I) is an 
        existing DOD program focused on warrior care; the goal of E2I 
        is to ensure consistent offerings to all recovering service 
        members by synchronizing, integrating and expanding the 
        education and employment opportunities for them and their 
        families. E2I will ensure the service member is engaged early 
        in their recovery process to identify skills and develop a 
        career plan that leverages those skills. Through the execution 
        of their career plan, servicemembers will ultimately be matched 
        with education and career opportunities that increase their 
        career readiness and better prepare them for a successful 
        transition from their service.
      Apprenticeship.--Training and Doctrine Command has mapped Army 
        MOS's to assist in developing an Army program similar to the 
        United States Military Apprenticeship Program (USMAP), managed 
        by Naval Education and Training Command. A formal military 
        training program that provides Active-Duty Coast Guard, Marine 
        Corps, and Navy service members the opportunity to improve 
        their job skills and to complete their civilian apprenticeship 
        requirements while they are on active duty. Our goal is to 
        implement this program in concert with Military Life Cycle 
        implementation timelines.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

               MQ-8B FIRE SCOUT UNMANNED AERIAL VEHICLES

    Question. General Odierno, I've been informed that the Army's 37th 
Infantry Brigade Combat Team (IBCT) in Afghanistan is being supported 
by an Intelligence, Surveillance and Reconnaissance (ISR) Task Force 
led land-based deployment of MQ-8B Fire Scout unmanned aerial vehicles. 
I understand the MQ-8B is providing the 37th IBCT with full-motion 
video for route clearance and tactical ISR in an austere operating 
environment near Kunduz. Would you please provide the subcommittee 
information on who's operating the MQ-8B's in Afghanistan and more 
details on the types of missions and performance of the MQ-8B in 
Afghanistan?
    Answer. In May 2011, the U.S. Navy deployed three MQ-8B Aircraft to 
Operation Enduring Freedom (OEF). These aircraft are operated by 
Northup Grumman which is contracted to provide 300 hours of Electro 
Optical/Infrared Full Motion Video per month. While the aircraft are 
owned by the Navy, the deployment of this contractor flown system was 
funded by the ISR Task Force.

                     ARMED AERIAL SCOUT HELICOPTER

    Question. General Odierno, the Congress approved fiscal year 2012 
funding for the Army to conduct a flight demonstration of Armed Scout 
helicopter capabilities. When do you expect to conduct this 
demonstration; what do you expect to glean from it; and do you plan to 
use the results of this demonstration to inform the Department's fiscal 
year 2014 budgeting process and the way ahead for this needed 
capability?
    Answer. The Army has requested authority to release a Request for 
Information (RFI) and conduct the voluntary flight demonstration. Once 
authorized to release the RFI, the Army expects to receive responses 
within approximately 60 days. The demonstrations will begin 
approximately 120 days after RFI release.
    The purpose of the RFI and voluntary flight demonstration is to 
assess the current state of technology within industry. Results will be 
captured according to each individual respondent's level of 
participation. Our path forward with the Armed Aerial Scout (AAS) will 
enable us to make an informed capabilities decision and, subsequently, 
a materiel solution option recommendation, to the Defense Acquisition 
Executive based on the current state of technology in the market place. 
The AAS RFI, industry discussions, and the voluntary flight 
demonstration will inform a future materiel solution option 
recommendation that represents a medium-risk program with achievable 
and affordable requirements within the current and future fiscal 
environment.
    The results of the RFI and voluntary flight demonstration is 
intended to inform the Department's fiscal year 2014 budgeting process 
and the way ahead for this needed capability.

                         TACTICAL FUEL SYSTEMS

    Question. General Odierno, I am aware the Army Combined Arms 
Support Command identified an operational gap for its tactical fuel 
system. I have been informed that there is a need for collapsible fuel 
tank storage systems to support a much longer use life than what is 
being used by the Army. The subcommittee is aware of field reports 
which indicate premature degradation and outright failure within the 
first year of use for current systems. Have you evaluated the 10-year 
service-life capabilities of Nitrile rubber collapsible storage tanks 
currently used by the United States Marine Corps? What is the life-
cycle cost differential between the Army systems and the Nitrile rubber 
systems being used by the Marines?
    Answer. The Army Tank Automotive Research, Development and 
Engineering Center (TARDEC) has not performed a 10-year service-life 
capabilities analysis for the Nitrile collapsible tank; however, they 
did perform a limited performance comparison between the Nitrile tank 
and the polyurethane tanks.
    TARDEC purchased Nitrile and polyurethane tanks that conformed to 
the TRI- Services specifications for fuel tanks. The TRI-Services group 
is a Defense Logistics Agency (DLA) led entity that, among other 
responsibilities, sets the specifications for fuel tanks.
    TARDEC provided the following information from their comparison 
between the Nitrile and polyurethane tanks:
  --Nitrile tanks were 11 percent more expensive to produce on a unit 
        cost basis. This difference can be attributed to:
    --Nitrile is a more expensive raw material than polyurethane.
    --The fabrication of a nitrile fuel tank is more labor intensive.
  --Maintenance and repair costs are equivalent.
  --Costs of technical manuals and logistics data are equivalent.
  --Fielding and training costs are equivalent.
  --Disposal costs are equivalent.
    The TARDEC comparison did not address the difference in service 
life between the two collapsible bags; however, Defense Logistics 
Agency-Energy will conduct separate research and development tests on 
both Nitrile and polyurethane-coated tanks. The projected completion of 
those tests is estimated to be October 2013 and April 2014, 
respectively.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

                ELIMINATION OF ARMY BRIGADE COMBAT TEAMS

    Question. In your testimony, you mentioned the Army's plans to 
eliminate at least eight brigade combat teams (BCTs). What are the 
criteria that the Army will use in deciding which BCTs will stay and 
which will go?
    Answer. The Army will consider a broad array of criteria for 
inactivation of the eight BCTs to make strategically sound, resource 
informed decisions. Criteria will be based on strategic considerations, 
operational effectiveness, geographic distribution, cost and the 
ability to meet statutory requirements.
      Strategic Considerations.--Aligns Army Force Structure to the new 
        Defense Strategy and forthcoming Defense Planning Guidance with 
        a priority on the Pacific region.
      Operational Considerations.--Seeks to maximize training 
        facilities, deployment infrastructure, and facilities to 
        support the well-being of soldiers and their families. Aligns 
        appropriate oversight/leadership by senior Army headquarters 
        for better command and control.
      Geographic Distribution.--Seeks to distribute units in the United 
        States to preserve a broad base of support and linkage to the 
        American people.
      Cost.--Considers the impacts of military personnel, equipment, 
        military construction, and transportation costs.
      Statutory Requirements.--Complies with the provisions of the 
        National Environmental Policy Act (NEPA) as appropriate, 
        including an environmental and socio-economic analysis.
    Question. Will the Congress be consulted ahead of time on the 
proposed BCT decisions? If not, why not?
    Answer. The Army is considering a number of potential options, but 
no final decisions have been made as to which U.S.-based BCTs will be 
drawn down. An announcement on specific force structure actions is 
expected sometime before, or in conjunction with, submission of the 
fiscal year 2014 President's budget in early February 2013. The Army 
will develop a plan that will provide detailed information regarding 
the draw down and address notification of affected Army installations 
and appropriate Congressional Committees as required by section 2864 of 
the Fiscal Year 2012 National Defense Authorization Act prior to the 
decision going into effect.
                                 ______
                                 
          Question Submitted by Senator Kay Bailey Hutchinson

                         SUICIDE VEST DETECTION

    Question. General Odierno, Department of Defense (DOD) and the 
services have spent approximately $50 million developing and deploying 
technology that automatically identifies people potentially wearing 
suicide vests at stand-off ranges. However, this technology is still 
not currently available to many bases in Afghanistan as well as in the 
United States. What is the Army doing today in Afghanistan to screen 
personnel at stand-off ranges that are seeking access to our bases 
where this technology is not available?
    Answer. The Army and the Joint Improvised Explosive Device Defeat 
Organization (JIEDDO) have resourced more than $500 million for Entry 
Control Point (ECP) solutions alone. The Army has employed several 
solutions in Afghanistan to screen personnel at stand-off distances 
including:
  --Counter Bomber 3 (CB-3);
  --Standoff Suicide Bomber Detection System (SSBDS);
  --Subtle madness;
  --Light guard;
  --Rapid scan;
  --Backscatter vans;
  --walkthrough metal detectors;
  --Biometrics, random anti-terrorism measures (RAM); and
  --the capabilities associated with ECP solutions to counter and 
        mitigate Person-Borne Improvised Explosive Devices (PBIED).
    These systems allow the Army in Theatre to provide a layered, 
stand-off defense at most locations.
    In addition to PBIED systems, Army units deploy a layered defense 
at all locations in Afghanistan by continuously screening personnel and 
scanning surrounding areas of each Forward Operating Base (FOB). 
Soldiers occupy guard towers and entry control points with night 
vision, thermal, and long-range optics, and man entry control points. 
Each FOB has a Base Defensive Operations Center that controls the Base 
Expeditionary Targeting and Surveillance Systems-Combined (BETSS-C) 
camera system, Raid and Cerberus Towers, and video feeds from 
aerostats. Beyond the FOB, units routinely conduct mounted patrols 
around the FOBs, Tactical Checkpoints (TCPs), and regional Tactics, 
Techniques, and Procedures (TTPs) to provide additional surveillance 
outside the reach of the guard towers.
    United States Forces Afghanistan (USFOR-A) determines the 
distribution of PBIED equipment to operating bases in theater. USFOR-A 
determines the needs of installations based upon analysis of the local 
threat and logistics capabilities of the operating bases. Currently 
there are no requirements for additional PBIED systems.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                    HIGH-DEMAND SOLDIERS DWELL TIME

    Question. Army leaders have repeatedly said that we owe our Active-
Duty soldiers a minimum of 2 years home for every 1 year deployed. 
While we are meeting that goal for some soldiers, I'm less confident 
that this budget does the same for soldiers serving in the combat arms 
and low-density, high-demand units such as aviation and special forces. 
These are the very category of soldiers that need the required dwell 
time the most. They are also the forces that are most likely to deploy 
even if we are not in large-scale engagements like Iraq and 
Afghanistan.
    General Odierno, in light of the proposed force reductions, did the 
Army ensure that this budget provides an average dwell time for combat 
arms and high-demand soldiers that equals 2 years home for every year 
deployed?
    Answer. The Army will accomplish force reductions in a responsible 
and controlled manner, and the proposed force structure will allow the 
Army to meet our Boots-on-the-Ground (BOG):Dwell goal. As always, the 
Army's intent has been to improve dwell time for soldiers and families 
where possible, and the goal is to achieve a 1:2 for Active units and 
1:4 for Reserve units by 2015. However, end-strength reductions beyond 
490,000 will challenge the Army's ability to meet timelines for current 
identified requirements and to maintain necessary dwell for units and 
soldiers.
    In the second quarter of fiscal year 2012, with the help of the 
temporary end-strength increase and the decrease in demand for deployed 
forces, the Active component of the Army achieved its individual 
BOG:Dwell goal with a median ratio of 1:2.01. However, several grades 
and specialties are still below the 1:2 goals but have been improving. 
Among these are enlisted soldiers in grades sergeant and below, and 
aviation soldiers in general. Army Special Operations Forces are 
programmed to grow 3,677 military manpower authorizations from fiscal 
years 2013 to 2017. Growth includes adding an MH-47G helicopter company 
in fiscal year 2014 (176 personnel), two extended range/multipurpose 
Unmanned Aerial Systems (UAS) companies in fiscal year 2014 and fiscal 
year 2015 (330 personnel), and an increase in combat support and combat 
service support in each Special Forces Group in fiscal year 2013 and 
fiscal year 2014 (1,445 personnel). Additionally, 334 Military 
Intelligence (MI) billets will be added in fiscal year 2014 to the 
Active Special Forces Groups and the Ranger Regiment to increase MI 
capability. The Army remains committed to activate a Combat Aviation 
Brigade (CAB) at Fort Carson in fiscal year 2013 as planned.

                COMMON REMOTELY OPERATED WEAPONS STATION

    Question. One of the weapon systems in the Army's arsenal that has 
been most demanded by soldiers in Iraq and Afghanistan is the Common 
Remotely Operated Weapons Station (CROWS). I am proud that many 
components of this system are manufactured and assembled in my home 
State of Maine. I was please to see that funding for the CROWS has 
moved from the overseas contingency operations (OCO) budget to the base 
budget.
    However, it is unclear to me how the Army arrived at the long-term 
acquisition objective for the quantity of CROWS to be procured. From my 
review of the budgetary documents and solicitations, it appears the 
Army intends to procure a total of between 14,000 and 18,000 CROWS to 
outfit a fleet of combat and tactical vehicles that consists of several 
hundred thousand vehicles.
    General Odierno, how did the Army arrive at the requirement and 
total acquisition objective for the CROWS system?
    Answer. The Army has produced the CROWS for the last 6 years to 
respond to Operational Need Statements from the commanders in the field 
and to provide CROWS to various Program Managers to mount on their 
vehicles such as up-armored high-mobility multipurpose wheeled vehicles 
(HMMWV), mine-resistant ambush-protected (MRAP) vehicles, Route 
Clearance Vehicles, and Abrams Tanks. As Training and Doctrine Command 
(TRADOC) has developed their fielding plan for the various branches, 
the Basis of Issue Plan (BOIP) submitted and approved through the 
Organization Requirements Document Approval Brief (ORDAB) on May 9, 
2011, was for a total of 11,269. This quantity reflects 1,556 for Heavy 
Brigade Combat Teams, 1,119 for Special Operations Forces, 4,090 for 
Stryker Brigade Combat Teams, 576 for Explosive Ordnance Disposal, 9 
for Ordnance Center and Schools, 2,143 for Sustainment Center of 
Excellence, and 1,776 for Maneuver Center of Excellence. This number 
may change slightly as TRADOC continues to update and analyze their 
requirements.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. We stand in recess, and will reconvene on 
Wednesday, March 28, at 10 a.m., to learn about Defense Health 
Programs.
    Mr. McHugh. Thank you, Mr. Chairman.
    General Odierno. Thank you, Mr. Chairman.
    [Whereupon, at 12:13 p.m., Wednesday, March 21, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 28.]

</pre></body></html>
